<html>
<title> - OVERSIGHT AND REAUTHORIZATION OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 OVERSIGHT AND REAUTHORIZATION OF THE FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2017

                               __________

                           Serial No. 115-48



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-002 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                        
                        
                        
      








      
      
      
      
      
      
                        
                        
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 _____

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
     
     
     
     
     
     
     
     
     
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     2
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9

                               Witnesses

Ajit Pai, Chairman, Federal Communications Commission............    11
    Prepared statement...........................................    13
    Additional information submitted for the record \1\
    Answers to submitted questions...............................   117
Mignon L. Clyburn, Commissioner, Federal Communications 
  Commission.....................................................    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................   133
Michael O'Rielly, Commissioner, Federal Communications Commission    21
    Prepared statement...........................................    23
    Answers to submitted questions...............................   137

                           Submitted Material

Discussion Draft, H.R. ___, regarding FCC reauthorization........    74
Flier, ``In Their Own Words: ISP Statements to Investors About 
  Title II's Lack of Harmful Impacts,'' Free Press, submitted by 
  Mr. Doyle......................................................   116
Report by Free Press, ``It's Working: How the Internet Access and 
  Online Video Markets Are Thriving in the Title II Era,'' May 
  2017, by S. Derek Turner, \2\ submitted by Mr. Doyle

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF16/
  20170725/106312/HHRG-115-IF16-20170725-SD005-U76141.pdf.
\2\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF16/
  20170725/106312/HHRG-115-IF16-20170725-SD002-U2.pdf.

 
 OVERSIGHT AND REAUTHORIZATION OF THE FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                         TUESDAY, JULY 25, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, 
Flores, Brooks, Collins, Cramer, Walters, Walden (ex officio), 
Doyle, Welch, Clarke, Loebsack, Ruiz, Dingell, Rush, Eshoo, 
Engel, Butterfield, Matsui, McNerney, and Pallone (ex officio).
    Also present: Representative Cardenas.
    Staff present: Ray Baum, Staff Director; Mike Bloomquist, 
Deputy Staff Director; Karen Christian, General Counsel; Kelly 
Collins, Staff Assistant; Robin Colwell, Chief Counsel, 
Communications and Technology; Jordan Davis, Director of Policy 
and External Affairs; Blair Ellis, Press Secretary/Digital 
Coordinator; Charles Flint, Policy Coordinator, Communications 
and Technology; Adam Fromm, Director of Outreach and 
Coalitions; Gene Fullano, Detailee, Communications and 
Technology; Giulia Giannangeli, Legislative Clerk, Digital 
Commerce and Consumer Protection/Communications and Technology; 
Zach Hunter, Communications Director; Peter Kielty, Deputy 
General Counsel; Tim Kurth, Senior Professional Staff, 
Communications and Technology; Lauren McCarty, Counsel, 
Communications and Technology; Hamlin Wade, Special Advisor for 
External Affairs; Jeff Carroll, Minority Staff Director; Alex 
Debianchi, Minority Telecom Fellow; Evan Gilbert, Minority 
Press Assistant; David Goldman, Minority Chief Counsel, 
Communications and Technology; Jerry Leverich, Minority 
Counsel; Lori Maarbjerg, Minority FCC Detailee; Jessica 
Martinez, Minority Outreach and Member Services Coordinator; 
Dan Miller, Minority Staff Assistant; Tim Robinson, Minority 
Chief Counsel; Matt Schumacher, Minority Deputy Press Secretary 
and Digital Director; and Andrew Souvall, Minority Director of 
Communications, Member Services, and Outreach.
    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order.
    The Chair now recognizes herself for 5 minutes for an 
opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    And I want to welcome you all to the subcommittee's hearing 
titled ``Oversight and Reauthorization of the Federal 
Communications Commission.'' I appreciate the Commissioners 
appearing to offer their testimony today, and we appreciate 
that we have been able to hear from you in advance of this 
hearing. The FCC has not been reauthorized since 1990, and its 
current appropriation is over $430 million. It is charged with 
the administration of the Communications Act and other statutes 
vital to the functioning of our communications policy. We must 
reexamine the core functions of the Commission and restore a 
culture of humility that was lacking under the regulatory cloud 
left by Chairman Wheeler.
    The FCC plays a vital role in our increasing lead 
technology dependent society. The subcommittee has, therefore, 
released a discussion draft for consideration.
    I would be remiss by not discussing net neutrality. The 
Commission's decision in 2015 to reclassify the internet as a 
public utility was a power grab laced with the irony of 
suffocating the most innovative part of our economy with a 
1930's era law. This gave new meaning to the term 
``progressive.'' Reply comments to the Commission's NPRM are 
due August 18. Chairman Pai, we hope you are keeping that 
``weed whacker'' handy, because it has a lot of work to do.
    Title II reclassification has created a 5.6 percent 
reduction in ISP network investment, will lead to rate 
regulation, and has generated tremendous uncertainty.
    However, I know there is disagreement. And while my 
colleagues on the other side of the aisle had nothing to do 
with this, internet giants Amazon, Facebook, and Google 
recently joined with Web sites such as PornHub and dark money 
groups fight for the future, demand progress, and free press 
for a day of action to claim Republicans will break the net. 
Let me be clear: Republicans have always supported a free and 
open internet. Let's not have any misunderstanding on that 
issue. We must move past the partisan rhetoric. Ranking Member 
Pallone said in 2010 that this is a job for Congress in 
referring to the net neutrality rules, and I agree.
    Other issues confronting the Commission include 
administration of the Lifeline program, media ownership rules, 
and process reform. The GAO released another report critical of 
the Lifeline program on June 29. It found that 36 percent of 
the program participants could not be verified for eligibility. 
Over 6,000 deceased individuals were enrolled after their 
death, and numerous carriers approved eligibility for the 
program based on fictitious documentation. Lifeline continues 
to be plagued by significant deficiencies, including the need 
for a hard cap.
    Outdated media ownership rules and process reform issues 
also concern the committee. Commissioner O'Rielly astutely 
noted that the FCC's quadrennial review of broadcast-to-
ownership rules released last August was, and I am quoting, 
``divorced from the realities of today's media marketplace,'' 
end quote.
    Finally, process reform has been an issue of bipartisan 
concern for some time. Bipartisan bills have passed the House 5 
of the last 6 years.
    Chairman Pai, you have taken positive steps, including the 
release of a fact sheet for any proposal to be considered at an 
open meeting in releasing the text of documents to the public 
in advance of a vote at an open meeting. However, more must be 
done to promote and sustain a culture of transparency at the 
Commission on several other issues noted in the majority 
memorandum.
    I look forward to today's hearing. And at this time, I 
yield the balance of my time to Mr. Lance.
    [The prepared statement of Ms. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to the Communications and Technology Subcommittee's 
hearing titled ``Oversight and Reauthorization of The Federal 
Communications Commission''. I appreciate the Commissioners 
appearing here to offer their testimony.
    The FCC has not been reauthorized since 1990 and its 
current appropriation is over $430 million. It is charged with 
administration of the Communications Act and other statutes 
vital to the functioning of our communications policy. We must 
reexamine the core functions of the Commission and restore a 
culture of humility that was lacking under the regulatory cloud 
left by Chairman Wheeler. The FCC plays a vital role in our 
increasingly technology dependent society. The subcommittee has 
therefore released a discussion draft for consideration.
    I would be remiss by not discussing net neutrality. The 
Commission's decision in 2015 to reclassify the internet as a 
public utility was a power grab laced with the irony of 
suffocating the most innovative part of our economy with a 
1930s-era law. This gave new meaning to the term 
``progressive.'' Reply comments to the Commission's NPRM are 
due August 18th. Chairman Pai, we hope you're keeping that 
``weed whacker'' handy because it has a lot of work to do.
    Title II reclassification has created a 5.6 percent 
reduction in ISP network investment, will lead to rate 
regulation and has generated tremendous uncertainty. However, I 
know there is disagreement. While my colleagues on the other 
side of the aisle had nothing to do with this, internet giants 
such as Amazon and Google recently joined with Web sites like 
Pornhub, and dark money groups Fight for the Future, Demand 
Progress, and Free Press for a ``Day of Action'' to claim 
Republicans will ``break the Net.'' Let me be clear: 
Republicans have always supported a free and open internet. We 
must move past the partisan rhetoric. Ranking Member Pallone 
said in 2010 that this is a job for Congress. I agree.
    Other issues confronting the Commission include 
administration of the Lifeline program, media ownership rules, 
and process reform. The GAO released another report critical of 
the Lifeline program on June 29th. It found that 36 percent of 
program participants could not be verified for eligibility, 
over 6,000 deceased individuals were enrolled after their 
death, and numerous carriers approved eligibility for the 
program based on fictitious documentation. Lifeline continues 
to be plagued by significant deficiencies--including the need 
for a hard cap.
    Outdated media ownership rules and process reform issues 
also concern the subcommittee. Commissioner O'Rielly astutely 
noted that the FCC's Quadrennial Review of broadcast ownership 
rules released last August was ``divorced from the realities of 
today's media marketplace.'' Finally, process reform has been 
an issue of bipartisan concern for some time. Bipartisan bills 
have passed the House five of the last 6 years. Chairman Pai, 
you have taken positive steps; including the release of a fact 
sheet for any proposal to be considered at an open meeting and 
releasing the text of documents to the public in advance of a 
vote at an open meeting. However, more must be done to promote 
and sustain a culture of transparency at the Commission on 
several other issues noted in the majority memorandum.
    I look forward to today's hearing. Thank you.

    Mr. Lance. Thank you, Chair Blackburn, and welcome to the 
FCC Commissioners.
    The internet is a great equalizer. It provides an open 
platform to empower innovation, expression, and free speech, as 
well as other inventions in history. By reclassifying internet 
services under the depression era Title II, common carrier 
rules, in 2015, the FCC needlessly risked this great economic 
engine. Title II opens the door to burdensome regulations that 
harm competition, threaten the investment and broadband needed 
to close the digital divide and hold back innovation such as 
5G.
    I applaud Chairman Pai for initiating a proceeding to 
review this misguided reclassification. It is important for 
consumers not to conflate the harmful Title II reclassification 
with the net neutrality principles as some would suggest. There 
is strong support among the American people for a light touch 
approach to internet regulation, and a strong consensus on both 
sides of the aisle for net neutrality principles. These ideas 
do not need to be mutually exclusive.
    It is my hope that the Commission and Congress can finally 
resolve the open internet issues, and that we can work together 
in a bipartisan capacity.
    Thank you, Madam Chair.
    Mrs. Blackburn. I now recognize the ranking member, Mr. 
Doyle, for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Chairman Blackburn, for holding this 
long overdue hearing today, and thank you to the witnesses for 
appearing before us. It is my sincere hope we can make this a 
far more regular occurrence.
    I have spent my time in Congress and on this committee as a 
strong advocate of competition, innovation, and opportunity. 
These are the pillars of a successful marketplace and the 
driving force of our economy. When we act to weaken them, we 
weaken our own economy and our country.
    Chairman Pai, in the time that you have been head of this 
agency, we have seen an agenda that is anti-consumer, anti-
small business, anti-competition, anti-innovation, and anti-
opportunity. Right out of the gate, the Commission took a range 
of actions, including pulling back an investigation of anti-
competitive zero rating practices, and a mere progress report 
on updates to a program to bring broadband to schools and 
libraries.
    The Commission reinstated the UHF discount for what seems 
to be no other reason than to enable an unprecedented merger 
between Sinclair and Tribune that would give the combined 
entity a foothold in nearly 80 percent of American households. 
The Commission eviscerated competition for business data 
services in this country. Your order concluded that a market is 
competitive if it is served by one provider with the 
possibility of another one might enter at some point. I don't 
even see how this makes sense.
    The Commission ended a program that enabled poor people to 
get access to broadband, literally pulling service away from 
people who had already signed up. The Commission is in the 
process of eliminating the FCC's open internet order, which, as 
of this morning, 12.3 million have written to you in 
overwhelming opposition.
    These rules are working, they have been upheld in Federal 
court, and they have promoted a virtuous cycle of investment 
and innovation online. And I don't think this point can be 
stressed enough. Publicly traded companies are required by law 
to tell their investors the risk to their company. No publicly 
traded ISP has made such a claim. However, many online 
companies, including Netflix and SNAP, have claimed that 
eroding or eliminating these rules will, in fact, pose a threat 
to their businesses.
    You know, when I read your statements and you talk about 
investment and your concerns, you only seem to talk about it in 
relation to ISP investment. I am concerned that maybe you just 
don't get it. The internet isn't just an ISP's connection to 
the consumer. It is a vast array of networks, services, and 
applications. Ignoring the rest of the ecosystem is to ignore 
the part of the internet that is the most vibrant and 
innovative.
    I am deeply concerned that the FCC is on a wrong path, a 
path that will hurt small businesses, regular people, and some 
of the most innovative sectors of our economy.
    And on that cheery note, I will yield of balance of my time 
to Ms. Eshoo.
    Ms. Eshoo. I thank the ranking member. And what a superb 
opening statement you just made.
    One of the most important issues currently before the FCC 
is obviously net neutrality. We have heard a lot from net 
neutrality opponents about the impact of Title II on broadband 
investment. And while large ISPs tell the FCC that Title II has 
chilled investment, their executives tell their shareholders a 
different story. The benefits of Title II protections to every 
other sector of our economy are enormous. A free and open 
internet supported the creation of 10.4 million U.S. jobs in 
all 50 States in 2016. 86 percent of these jobs came outside of 
major tech hubs.
    Despite the broad impact of the open internet on our 
economy, the FCC is barreling down the road of eliminating 
these critical protections, and making it clear to the American 
people, startups, and small businesses that their input is not 
valued nearly as much as that of Washington's special 
interests.
    So I look forward to discussing this issue further, and ask 
that my full statement be inserted in the record. I also plan 
to discuss very directly with you, Mr. Chairman, the whole 
issue of RT in the intelligence communities public record 
statement. It is replete with references to RT. And I think 
that we need to pay a great deal of attention to that.
    I thank the gentleman for yielding, and I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Does the gentleman yield back?
    Mr. Doyle. Yes, I yield back. Thank you.
    Mrs. Blackburn. The gentleman yields back his time. And I 
will say to my colleagues, we agree with you that the issues of 
the health of the internet ecosystem, the issue of net 
neutrality, the issue of Title II deserve additional attention 
from this committee, and we look forward to carrying forward 
with this.
    At this time, I recognize the chairman of the full 
committee, Mr. Walden, for 5 minutes for an opening.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Madam Chair, and to all of our 
witnesses, the Commissioners and the chairman, to our guests.
    American innovation in the internet space has literally 
revolutionized the world and everything we do and how we do it. 
From research and communications to shopping and entertainment, 
the internet is an essential part of our everyday lives. Given 
the debate over the rules for internet operations and consumer 
privacy, it is our responsibility on the Energy and Commerce 
Committee to fully understand all sides of the internet 
governance issue. Therefore, I am announcing this morning that 
I am convening a full Energy and Commerce Committee hearing 
entitled ``Ground Rules for the Internet Ecosystem'' for 
Thursday, September 7, 2017.
    Today I am sending formal invitations to the top executives 
of the leading tech companies, including Facebook, Alphabet, 
Amazon, and Netflix, as well as broadband providers including 
Comcast, AT&T, Verizon, and Charter Communications, inviting 
each of them to come and testify before our full Energy and 
Commerce Committee.
    It is time for Congress to legislate the rules of the 
internet, and stop the Ping-Pong game of regulations and 
litigation. And make no mistake, given the importance of this 
public policy debate, and the work we need to do as a 
committee, it is essential that we hear directly from the 
country's top internet and edge provider leaders who frequently 
speak out publicly about rules of the internet. It is time they 
came before us, and directly shared their positions and 
answered our questions.
    And with more than a month's advance notice, I am sure they 
can arrange their schedules to accommodate our invitations.
    Now, with regard to today's panel. Chairman Pai, welcome 
and congratulations on taking over the helm at the FCC. 
Commissioner Clyburn, Commissioner O'Rielly, we are glad to 
have you back before us as well. Thank for the work you do.
    We begin a new chapter in the history of the FCC, one that 
will shape some of the most important parts of our national 
economy: The telecommunications industry, the video 
distribution industries, and the internet.
    In today's hearing, we begin to examine reauthorizing the 
FCC, and that is the first time since 1990 the FCC has come up 
for reauthorization. By any estimation, this discussion is long 
overdue, and today, we continue conversations to make the FCC a 
model agency with proposals for a number of process reforms, 
many of which will sound very familiar because we have taken 
them up before in this committee.
    When we first took up these open Government reforms, I said 
it was not about who headed the FCC at the time; it was about 
improving transparency and public involvement in a public 
process. I believe that under Chairman Wheeler, and I believe 
that just as much now under Chairman Pai.
    I was pleased to see Chairman Pai demonstrated his 
commitment to making the FCC operations more transparent 
through action by initiating a pilot program to publicly 
release the text of Commission agenda items at the same time 
they are presented to the other Commissioners for a vote, a 
measure his predecessor opposed. There are a number of matters 
pending at the Commission, many of which we will discuss today.
    With the forward portion of the incentive auction concluded 
the next phase, the broadcaster repack is underway. The 
Commission has set forth an aggressive schedule to move all the 
broadcasters impacted by this auction. While I have every 
confidence that Chairman Pai will work to ensure consumers 
continue to have access to over-the-air television, concerns 
remain about the sufficiency of the 39-month time line and the 
$1.75 billion budget.
    I take these concerns seriously, and will continue to work 
closely with the Commission and my colleagues to make sure that 
over-the-air broadcasting and the viewers they reach on their 
main channel and on their translators are not adversely 
affected. And, of course, Chairman Pai has commenced a 
proceeding to examine returning regulation of the internet to 
the bipartisan framework that made it the economic engine that 
it is today.
    As we wait for this process to take its course, the future 
of the greatest economic engine of modern times is clouded with 
uncertainty with a growing recognition that the time is now for 
legislative action. We offered a way forward on net neutrality 
in 2015. I believe now, as I did then, that we should work 
together to write bipartisan legislation to protect the 
internet from bad actors who want to use their unfair advantage 
to block, throttle, or, in other ways, engage in bad behavior. 
The American people deserve no less. We stand ready to act.
    Chairman Pai, Commission Clyburn, Commissioner O'Rielly, 
thank you all again.
    If there are others who want to use the last 15 seconds, I 
would happily yield. And if not, I yield back the balance of my 
time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning everyone.
    American innovation in the internet space has literally 
revolutionized the world and everything we do and how we do it. 
From research and communications to shopping and entertainment, 
the internet is an essential part of our everyday lives. Given 
the debate over the rules for internet operations and consumer 
privacy, it is our responsibility on the Energy and Commerce 
Committee to fully understand all sides of internet governance. 
Therefore, I am announcing this morning that I am convening a 
full Energy and Commerce Committee hearing entitled ``Ground 
Rules for the Internet Ecosystem'' on Thursday, September 7, 
2017. Today I am sending formal invitations to the top 
executives of leading tech companies, including Facebook, 
Alphabet, Amazon, and Netflix, as well as broadband providers 
including Comcast, AT&T, Verizon, and Charter Communications 
inviting them to testify. It's time for Congress to legislate 
the rules of the internet, and stop the ping-pong game of 
regulations and litigation. And make no mistake, given the 
importance of this public policy debate and the work we need to 
do as a committee, it is essential that we hear directly from 
the country's top internet and edge provider leaders who 
frequently speak out publicly about the rules of the internet. 
It's time they came before us and directly shared their 
positions and answered our questions. With more than a month's 
advance notice, I'm sure they can arrange their schedules to 
accommodate our invitation.
    Now, with regard to today's panel: Chairman Pai--welcome 
and congratulations again on taking over the helm of the 
Federal Communications Commission. Commissioner Clyburn, 
Commissioner O'Rielly welcome. Thank you all for joining us.
    We have begun a new chapter in the history of the FCC; one 
that will shape some of the most important parts of our 
national economy--the telecommunications industry, the video 
distribution industries, and the internet.
    In today's hearing, we begin to examine reauthorizing the 
FCC for the first time since 1990. By any estimation, this 
discussion is long overdue and today we continue conversations 
to make the FCC a model agency with proposals for a number of 
process reforms. When we first took up these open Government 
reforms, I said it wasn't about who headed the FCC at the time, 
it was about improving transparency and public involvement in a 
public process. I believed that when Chairman Wheeler ran the 
FCC just as much as I believe it now with Chairman Pai at the 
helm.
    I was pleased to see that Chairman Pai demonstrated his 
commitment to making the FCC's operations more transparent 
through action by initiating a pilot program to publicly 
release the text of Commission agenda items at the same time 
they are presented to other Commissioners for vote--a measure 
his predecessor opposed.
    There are a number of matters pending at the Commission, 
many of which we will talk about today. With the forward 
portion of the incentive auction concluded, the next phase--the 
broadcaster repack--is underway. The Commission has set forth 
an aggressive schedule to move all of the broadcasters impacted 
by the auction. While I have every confidence that Chairman Pai 
will work to ensure consumers continue to have access to over-
the-air television, concerns remain about the sufficiency of 
the 39-month timeline and the $1.75 billion budget. I take 
these concerns seriously and will continue to work closely with 
the Commission to make sure that over the air broadcasting and 
the viewers they reach on their main channel and on their 
translators are not adversely affected.
    And of course, Chairman Pai has commenced a proceeding to 
examine returning the regulation of the internet to the 
bipartisan framework that made it the economic engine that it 
is. As we wait for this process to take its course, the future 
of the greatest economic engine of modern times is clouded by 
uncertainty, with a growing recognition that the time is now 
for legislative action. We offered a way forward on net 
neutrality in 2015. I believe now, as I did then, that we 
should work together to write bipartisan legislation to protect 
the internet from bad actors who want to use their unfair 
advantage to block, throttle or in other ways engage in bad 
behavior. The American people deserve no less.
    Chairman Pai, Commissioner Clyburn, and Commissioner 
O'Rielly thank you all again.

    Mrs. Blackburn. The gentleman yields back. At this time, I 
recognize the ranking member of the full committee, Mr. 
Pallone, for 5 minutes for an opening.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairwoman.
    I would like to thank the FCC Commissioners for joining us 
this morning, our first FCC oversight hearing of this Congress. 
While I am glad you are here, this hearing should have occurred 
months ago. The Republican majority had no problem conducting 
oversight of the previous Obama administration holding 
quarterly oversight hearings. But now that their own party 
controls the majority of the Commission, we are six months into 
the administration, and this is our first hearing with the new 
Commission. I hope this is not a sign of things to come, 
because the Commission's own actions have shown the critical 
need for congressional oversight.
    To date, most of the FCC's actions have ignored the needs 
of consumers. Too often, when given the chance, this FCC has 
sided with large corporations to the detriment of hardworking 
Americans. The Commission started this year by making it more 
difficult for competitors to offer broadband to low-income 
people through the Lifeline program. It continued with a scheme 
to encourage more consolidation in the media industry, which 
would eliminate voices from the air.
    Last week, Chairman Pai refused to commit to protecting the 
funds necessary to close the homework gap as part of the 
popular E-Rate program in our schools. And then there is the 
alarming outright refusal by the FCC to protect the security of 
our broadband networks at a time when the Russians and others 
are looking for new ways to break in.
    But the highest profile example of the FCC siding with 
large corporations over small businesses and hardworking 
Americans is its attempt to eliminate net neutrality. A free 
and open internet is crucial for our democracy by giving 
everyone an equal voice online, especially those communities 
too often overlooked by traditional media. Each of us gets to 
decide which videos we watch, which sites we read, and which 
services we use. Nobody gets to influence that choice. Not the 
Government and not the companies that run the networks.
    A free and open internet also allows small businesses to 
flourish. These small businesses, many of which are owned by 
minorities and women, are responsible for more than half of the 
jobs in the country today. If the FCC moves ahead with its net 
neutrality repeal, the consequences will be severe. Their plan 
will have a chilling influence on our democracy, cut away at 
our connections with each other, and limit economic 
opportunities for the future. The FCC claims that net 
neutrality repeal is necessary because consumer protections 
might deter investment in network infrastructure. But this 
narrow-minded view of the public interest can lead to cruel 
results. I hope that the Commissioners really listen to the 
millions of comments that are coming in from around the Nation 
and reconsider their dangerous plan to eliminate net 
neutrality.
    This is not only an oversight hearing today. The Republican 
majority recently surprised us all with a 42-page 
reauthorization bill that had absolutely no Democratic input. 
And this bill is flawed. It slashes $18 million from the FCC's 
budget, the same agency that is having issues keeping its Web 
site up and running. This is not serious legislation, and it 
does not bode well for any serious legislation being developed 
by the majority of this subcommittee on any major communication 
issues.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I'd like to thank the FCC Commissioners for joining us this 
morning--our first FCC oversight hearing of this Congress. 
While I'm glad that you are all here today, this hearing should 
have occurred months ago. The Republican majority had no 
problem conducting oversight of the previous Obama 
administration, holding quarterly oversight hearings. But now 
that their own party controls the Commission, we're six months 
into the administration and this is our first hearing with the 
new Commission. I hope that this is not a sign of things to 
come, because the Commission's own actions have shown the 
critical need for Congressional oversight.
    To date, most of the FCC's actions have ignored the needs 
of consumers. Too often, when given the choice, this FCC has 
sided with large corporations to the detriment of hardworking 
Americans.
    The Commission started the year by making it more difficult 
for competitors to offer broadband to low-income people through 
the Lifeline program.
    It continued with a scheme to encourage more consolidation 
in the media industry, which would eliminate voices from the 
air.
    Last week Chairman Pai refused to commit to protecting the 
funds necessary to close the homework gap as part of the 
popular E-Rate program in our schools.
    And then there is the alarming outright refusal by the FCC 
to protect the security of our broadband networks at a time 
when the Russians and others are looking for new ways to break 
in.
    But the highest profile example of the FCC siding with 
large corporations over small businesses and hardworking 
Americans is its attempt to eliminate net neutrality.
    Net neutrality is crucial for our democracy by giving 
everyone an equal voice online-especially those communities too 
often overlooked by traditional media. Each of us gets to 
decide which videos we watch, which sites we read and which 
services we use. Nobody gets to influence that choice--not the 
Government and not the companies that run the networks.
    Net neutrality also allows small businesses to flourish. 
These small businesses-many of which are owned by minorities 
and women-are responsible for more than half of the jobs in the 
country today.
    If the FCC moves ahead with its net neutrality plan the 
consequences will be severe. Their plan will have a chilling 
influence on our democracy, cut away at our connections with 
each other, and limit economic opportunities for the future.
    The FCC claims its plan is necessary because consumer 
protections might deter investment in network infrastructure. 
But this narrow-minded view of the public interest can lead to 
cruel results. I hope that the Commissioners really listen to 
the millions of comments that are coming in from around the 
Nation, and reconsider their dangerous plan to eliminate net 
neutrality.
    This is not only an oversight hearing today--the Republican 
Majority recently surprised us all with a 42-page 
reauthorization bill that had absolutely no Democratic input. 
This bill is flawed. It slashes $18 million from the FCC's 
budget--the same agency that is having issues keeping its Web 
site up and running. This is not serious legislation, and it 
does not bode well for any serious legislation being developed 
by the majority of this subcommittee on any major 
communications issues.

    Mr. Pallone. And with that, I would like to yield such time 
as she wants to Ms. Matsui that I have left.
    Ms. Matsui. Thank you very much, Ranking Member Pallone, 
for yielding me time, and welcome to our FCC Commissioners. I 
represent Sacramento, the capital of the State of California, 
where innovation is central to the way we do business. My 
constituents are extremely concerned about vast and fair access 
to the internet, which is essential for the innovation economy 
to thrive. In fact, I have gotten myself so many comments on my 
phones and emails in Sacramento and here in Washington, DC.
    Everyone from small business owners to educators and 
librarians in my district have told me that they are counting 
on the FCC's net neutrality rules. And it is not just my 
constituents; it is Americans across this country. Almost 11 
million people have contacted the FCC about why net neutrality 
is so important. And these are not just business people. These 
are students; these are seniors; these are librarians, as I 
said before. These are people who use the internet every single 
day, and want it to be there. And I have to say this: Chairman 
Pai, I urge you to listen to these voices, millions of voices, 
and not roll back the progress that we have made. It is really 
important for the future of our country here. It is important 
for the future of our young people. And I truly believe that, 
in this way, if we stopped this progress, we will, in essence, 
stop the progress of our country. So I urge you to listen.
    And I yield back the balance of my time.
    Mr. Pallone. And I yield back, Madam Chairwoman.
    Mrs. Blackburn. The gentleman yields back.
    I will remind my colleagues, we had this hearing scheduled 
in March and gave up our day for the markup of the healthcare 
bill. And we would have liked to have had this hearing earlier 
in the year.
    That concludes Member opening statements. The Chair would 
remind all Members that, pursuant to the committee rules, they 
have an opportunity to make their opening statement a part of 
this record. We want to thank all of our witnesses for being 
here and taking the time to testify before the subcommittee. 
Today's witnesses will have the opportunity to give opening 
statements followed by questions from the Members.
    Our witness panel for today's hearing will include the 
Honorable Ajit Pai, who is Chairman of the Federal 
Communications Commission; the Honorable Mignon Clyburn, who is 
a Commissioner at the Federal Communications Commission; and 
the Honorable Michael O'Rielly, who is also a Commissioner at 
the Federal Communications Commission. We appreciate each of 
you being here today and for preparing your testimony for the 
committee. We will begin the panel with you, Chairman Pai. You 
are now recognized for 5 minutes for your opening statement.

   STATEMENTS OF AJIT PAI, CHAIRMAN, FEDERAL COMMUNICATIONS 
     COMMISSION; MIGNON L. CLYBURN, COMMISSIONER, FEDERAL 
COMMUNICATIONS COMMISSION; AND MICHAEL O'RIELLY, COMMISSIONER, 
               FEDERAL COMMUNICATIONS COMMISSION

                     STATEMENT OF AJIT PAI

    Mr. Pai. Thank you, Chairman Blackburn, Ranking Member 
Doyle, members of the subcommittee. Thank you for giving me the 
opportunity to testify today.
    Since 2012, it has been an honor to work with you on many 
issues. And now, as Chairman, I look forward to striving 
together to bring digital opportunity to all Americans. I also 
want to pay tribute to a distinguished member of this 
subcommittee, Representative Steve Scalise. I have had the 
chance to work with him over the past few years. And I have 
learned a truth known to many of you: To know him is to like 
him. My thoughts and prayers continue to be with him and his 
family during his recovery.
    The agency has been busy during the past few months. July 
marked Consumer Protection Month at the FCC. At our open 
meeting, we targeted a triad of consumer scourges: unlawful 
robocalls, slamming and cramming, and rural call completion, 
all on the heels of taking down the largest spoofer in our 
agency's history.
    August will be Rural Broadband Month. On August 3rd, we 
will consider the next steps towards implementing the Connect 
America Fund and Mobility Fund reverse auctions. We will also 
explore how to ensure that our ongoing collection of broadband 
deployment data is as accurate and efficient as possible. There 
is, of course, much more that the agency is doing and much more 
to be done.
    I look forward to continuing working together on a 
bipartisan basis to close the digital divide, promote 
innovation, protect consumers and public safety, and improve 
the FCC's processes and procedures.
    My testimony today will focus on two issues that I believe 
are ripe for legislative action. First, I applaud the 
subcommittee for promoting legislation to reauthorize the FCC 
for 5 years. I am eager to work with the subcommittee to 
advance it. I want to highlight one particular provision 
entitled ``Deposits of Bidders to be Deposited in Treasury.'' 
That provision is absolutely critical if our Nation is going to 
lead the world in 5G, because without it, the FCC won't be able 
to launch large-spectrum auctions in the foreseeable future. 
Here is why: The Communications Act requires that up-front 
payments made by bidders in spectrum auctions be deposited in, 
and I quote, ``an interest-bearing account at a financial 
institution.''
    But recent regulatory requirements have dissuaded private 
institutions from holding these up-front payments. Public 
institutions, too, have indicated that, going forward, they 
have no interest in establishing these special purpose accounts 
that would be necessary to offer such services. As a result, 
despite repeated efforts by FCC and Treasury staff, no 
financial institution is now willing to hold up-front payments 
in an interest-bearing account for a large spectrum auction. 
Thus, the FCC currently has no way to comply with the law and 
no way to move forward with any such auction. That is why I 
appreciate the subcommittee's willingness to address this 
situation. With the simple fix contained in the draft 
legislation, the FCC would, again, be able to schedule large-
spectrum auctions by allowing up-front payments to be deposited 
at the Treasury.
    Second, I would like to update the subcommittee on the 
post-incentive auction transition process. July 12 was the 
deadline for television broadcasters that are going to be 
repacked to submit cost estimates to the Commission. And two 
days later, the FCC announced that the aggregate amount of the 
estimated costs reported by broadcast television stations and 
multichannel video programming distributors, or MVPDs, that are 
eligible for reimbursement, was $2.115 billion. However, we 
cautioned that we expected to receive additional estimates from 
MVPD's and a smaller number of stations.
    In recent days, the FCC has received several additional 
estimates. And the aggregate total of estimated costs has 
increased to $2.139 billion. Given the estimates that we have 
received to date, we are confident that, once all initial 
estimates are received, the total will be below $2.2 billion.
    Now, looking beyond the initial round of estimates, the 
aggregate total of estimated repacking costs will continue to 
change through amendment and independent review during the 
transition process for these reasons: The FCC cannot 
definitively report today exactly how much the repack will 
cost. The final number could be lower or higher than the 
current $2.139 billion. But we do expect the final number to be 
above the $1.75 billion that Congress has provided the 
Commission to reimburse affected broadcast stations and MVPDs. 
As a result, unless Congress acts to raise the $1.75 billion 
cap, the substantial likelihood is that local broadcasters will 
be required to pay some portion of the repacking cost out of 
their own pockets. I would be happy to work with the 
subcommittee to address this important issue.
    Chairman Blackburn, Ranking Member Doyle, members of the 
subcommittee, thank you once again for holding this hearing. I 
look forward to answering your questions and to continuing to 
work with you and your staffs in the time to come.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Pai follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mrs. Blackburn. And he yields back right on time.
    Commissioner Clyburn, you are recognized for 5 minutes.

                 STATEMENT OF MIGNON L. CLYBURN

    Ms. Clyburn. Chairman Blackburn, Ranking Member Doyle, 
members of the subcommittee, good morning and thank you for the 
opportunity to again appear before you to share my priorities 
for advancing competition, strengthening viewpoint diversity, 
and ensuring that consumers are always put first.
    Last week, I had the privilege of traveling to Marietta, 
Ohio. It was there I heard countless stories from individuals, 
businesses, and local government leaders who, but for no other 
reason than their geographic location, and maybe a slight 
income gap, find themselves on the wrong side of the digital 
and opportunity's divide in Appalachia. Too many families in 
rural America, and even many urban communities, are suffering 
from poor to no connectivity and substandard service that, to 
add insult to injury is simply unaffordable.
    I believe, however, that if we commit as an agency to put 
the interest of consumers and small businesses first, we will 
be able to truly say that we are fulfilling our statutory 
mandate to serve the public interest. Allow me to spend the 
majority of my testimony today further explaining how the 
Commission can achieve this goal.
    Among my top priorities is preserving the Commission's 2015 
open internet rules. But just what is this administration's 
response to the more than now 12 million commenters who 
expressed their views with the Commission? To propose a 
dismantling of the bright line rules of the road we adopted in 
2015 and were upheld by the D.C. Circuit last year.
    We need to hit the pause button and begin serious 
discussions about the broader implications of undoing our 
classification of broadband as a Title II service. Take, for 
example, consumer privacy. In a world without Title II, not 
only will the FCC be forever barred from addressing consumer 
privacy in a broadband world, it is unclear that any agency 
will ever hold that authority. Similarly, when it comes to our 
efforts to expand the deployment of broadband, including in 
rural America, taking away Title II for broadband undercuts our 
ability to ensure universal service support for broadband by 
taking away our clearest choice of authority to make sure all 
Americans are connected.
    Undoing our classification of broadband as a Title II 
service also harms the FCC's ability to enable competition. 
Without Title II, it will be far more difficult for the 
Commission to enact policies to promote competition.
    Second, I have been a tireless leader and defender of the 
FCC Lifeline program and the need for there to be affordable 
connectivity for all American consumers. The reality is that an 
$80-to-$100-a-month broadband bill is simply out of reach for 
Americans who are struggling to make ends meet.
    Moving forward, we have a choice to make as a Commission. 
Will we be shortsighted and weaken a program designed to assist 
our Nation's most vulnerable, or will we commit to 
constructively address and fix any remaining issues?
    Third, I remain committed to delivering just and reasonable 
rates for the 2.7 million children who have been hampered in 
their quest to communicate with an incarcerated parent. I am 
thankful for the leadership of Congressman Bobby Rush and 
others on this subcommittee who, for years, have fought for 
real reform. Rest assured, I will continue fighting to ensure 
that inmates and their loved ones do not have to pay several 
thousand percent of what a nonincarcerated person pays just to 
stay in touch.
    Fourth, I am a strong believer in the need for greater 
viewpoint diversity across our public airwaves. However, the 
Commission has taken several highly concerning steps this year 
to derail that goal, including reinstating that technologically 
obsolete UHF discount. By reinstituting and maintaining this 
loophole that belongs in a regulatory trash heap, the 
Commission has signaled its willingness to allow a single 
broadcast station group to reach nearly 80 percent of the U.S. 
households in a way that is nontransparent to the public, and 
enables a nearly doubling of the ownership threshold set by 
this body in 2004.
    Finally, I would like to share some views about the 
Commission's work around broadband-enabled healthcare, if you 
would. Last month, the Commission's Connect2Health task force 
released an update of our popular broadband mapping tool. Our 
latest data shows that there are 214 counties, 175 of which are 
majority rural, where broadband access is below 50 percent, and 
diabetes and obesity rates are above the national average. And 
in a late-breaking update, I am pleased to report that as of 
Friday, the FCC has reopened its broadband health proceeding 
for additional comments. Equipped with this information and 
working with our Federal partners at HHS, the VA, and the NTIA, 
the FCC will be better positioned to target those double-burden 
counties.
    In conclusion, let me say that I always stand ready to work 
with my colleagues, this subcommittee, State and local 
partners, and business leaders to advance policies that put 
consumers first, and ensure our communications landscape 
remains the envy of the world.
    I thank you very much for allowing me more time. I am very 
enthusiastic about being here, as you can tell by my statement, 
and I look forward to answering any questions you may have in 
the remaining time I don't have.
    [The prepared statement of Ms. Clyburn follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
 
    Mrs. Blackburn. Thank you Commissioner Clyburn. And we are 
enthusiastic about having you here, and we thank you for your 
dedication on those issues.
    Commissioner O'Rielly, you are recognized for 5 minutes.

                 STATEMENT OF MICHAEL O'RIELLY

    Mr. O'Rielly. Thank you, Ms. Chairman, Ranking Member 
Doyle, and members of the subcommittee, for the opportunity to 
discuss the important topic before you today. I commend the 
subcommittee for its continued focus on the Federal 
Communications Commission, and I recommit to making myself 
available as a resource if I can be any assistance to the 
subcommittee in any manner in the future.
    I sincerely appreciate the efforts of the subcommittee to 
examine issues relevant to the re-authorizing of the 
Commission. I believe that it is incredibly valuable and 
important any time Congress articulates its views via 
legislation on the Commission's work, including its funding 
levels, procedures, and substantive issues.
    On that note, let me lend my strong support for the draft 
reauthorization bill before you today. As an aid to the 
subcommittee's examination of pertinent issues, I humbly 
suggest 15 additional process improvements in my written 
testimony that could be included in any reauthorization 
legislation. Many of these ideas, some of which I have 
discussed before while others are new, would benefit from being 
included in the statute so that future Commissions continue 
Chairman Pai's process reform direction.
    Additionally, I would be remiss if I didn't include a 
request for modifications to our enforcement authority to 
address the consistent problem of pirate radio broadcasting. 
Switching to the issue of broadband deployment, there appears 
to be great interest by many policymakers, including members of 
this subcommittee, to provide additional Federal funding for 
purposes of expanding broadband capabilities to more Americans. 
One option that has been discussed is to include such funding 
within a potential larger infrastructure bill. If this were to 
occur, I hope the subcommittee would adopt or look to the 
Commission's high cost program as a mechanism to distribute 
such funding as opposed to using other existing Federal 
programs or creating a new program.
    Additionally, to succeed at the next technological 
challenge, wireless providers are going to need two important 
ingredients: Access to sufficient mix of spectrum bands 
andreduced barriers to the installation of wireless equipment. 
While the Commission has been actively reallocating existing 
bands for mobile purposes with hopefully more no come, there 
remains obstacles imposed by State, local, and tribal 
governments that are hampering the ability of providers to 
serve Americans.
    On another topic, as Chairman Pai noted, the Commission is 
in the early stages of repacking broadcasters that either 
didn't participate, or weren't selected as part of our 
generally successful process to reallocate broadcaster spectrum 
for new wireless services. While the Commission will need to 
review and scrub the broadcaster cost estimates to ensure that 
only legitimate charges are reimbursed, it does appear that 
there may be a need for additional financial resources from 
Congress.
    Accordingly, the subcommittee should keep a close eye on 
the repacking cost estimates as our process continues, and may 
want to initiate a related legislative drafting process soon. 
Certainly, if it is determined that additional limited funding 
is needed to complete a successful repack, I would fully 
support such action, and would gladly help the subcommittee and 
Congress in any way.
    This concludes my testimony. Thank you, Madam Chair.
    [The prepared statement of Mr. O'Rielly follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Mrs. Blackburn. I thank the gentleman for his testimony. 
This concludes; the testimony portion, and we will now move to 
the questions. And I will begin by recognizing myself for 5 
minutes.
    As many of you have said, and we have seen in these opening 
statements, there is an ongoing dispute about the impact of 
Title II reclassification on investment. We hear it doesn't 
hurt; we hear it does hurt. In a lot of ways, this is a key 
metric of the debate, as the one thing we can all agree on is 
that investment is the key to massive broadband deployment that 
we need to connect to all Americans to the economic engine of 
the internet. And it affects education, it affects healthcare. 
As Ms. Clyburn, mentioned, it affects economic development and 
the creation of jobs. An analysis by Deloitte Consulting 
estimated that we need an investment of $130-to-$150 billion in 
fiber infrastructure over the next 5 to 7 years in order to 
meet our needs. So private investment is critical, but I fear 
we have put a kink in that investment pipeline with Title II.
    As I noted in my opening, we are seeing decreasing capital 
expenditures by our largest broadband providers. But some of my 
colleagues contend otherwise based on different studies 
measuring different parameters.
    Senator Markey contended at the Senate hearing last week 
that no publicly traded ISP has reported to its investors that 
Title II has negatively impacted investment and their net 
worths.
    But, Chairman Pai, have you seen other information 
regarding the impact Title II is having on broadband providers?
    Mr. Pai. Thank you for the question, Chairman Blackburn. We 
have seen evidence raised that suggests concerns that these 
rules have impacted infrastructure investment. And, for 
example, with respect to the 12 largest facilities-based 
internet service providers in the United States, we have called 
the 10Ks of those 12 ISPs, each of which is required under law 
to report to the Securities and Exchange Commission, any 
significant risks to the business going forward. Each of them 
has suggested these Title II regulations do, in fact, represent 
a significant risk to their businesses. And with the indulgence 
of the Chair, I would like to enter those into the record to be 
a part of this proceeding.
    Mrs. Blackburn. Without objection.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF16/20170725/
106312/HHRG-115-IF16-20170725-SD005-U76141.pdf.
---------------------------------------------------------------------------
    Mr. Pai. Additionally, I have heard for myself, among 
smaller providers, that these rules have impacted 
infrastructure investment. I visited for myself a municipal 
broadband provider in small-town Iowa. I held a roundtable just 
a couple weeks ago in Hagerstown, Maryland, where Antietam 
Cable told me that they explicitly pulled back on one phase of 
their gigabit broadband deployment precisely because of these 
rules. Now, we want to test the veracity of those propositions, 
which is precisely why we have opened a notice of proposed 
rulemaking so we can figure out what the facts are. Again, make 
the appropriate judgment.
    Mrs. Blackburn. Thank you for that. You know, I was--kind 
of chuckled a little bit. New York Times had an article in--I 
think it was this weekend--saying that infrastructure is fast 
becoming an afterthought. But we hear from our local and State 
electeds, it is the number one infrastructure issue. They want 
to talk about broadband more than anything else. And they don't 
care how they get it, whether it is wireline or fiber or fixed 
wireless, or whatever.
    And, Mr. Chairman, you were kind enough to come to my 
district. And this was something we had planned last fall and 
executed in February and did a broadband seminar. And you 
talked about some of the things the Commission is doing to make 
it easier for providers to deploy wired and wireless broadband. 
And just touch on some of those components, things that you all 
can do that will help ease the way to achieving the goal we all 
want, which is to have the country served by broadband.
    Mr. Pai. Thank you for the question. Two big buckets of 
reforms. One involves the Federal subsidy programs that we 
oversee, and the other involves regulatory reforms.
    With respect to Federal subsidies, the FCC, in my first 
full month as Chairman, adopted reforms through our Connect 
American fund, and to our Mobility Fund to ensure that both 
fixed and 4G LTE broadband is pushed out to unserved parts of 
America, places where people are on the wrong side of the 
digital divide.
    On August 3rd, we are going to be taking, as I mentioned in 
my testimony, next steps to ensure that those auctions happen 
in a timely way.
    With respect to regulatory reforms, I set up a broadband 
deployment advisory committee that is focusing on ways that the 
FCC, in cooperation with other agencies, Federal, State, and 
local, can cooperate to promote broadband deployment. We have 
taken steps to remote things like the great--easier siting of 
wireless infrastructure, the towers and small cells and the 
like. Make it easier to deploy the fiber through things like 
Dig Once policies to the extent we can and pole attachment 
reform.
    These might not be the highest profile issues that the 
agency works on. But in terms of your constituents, and I 
daresay, constituents around the country, this is the number 
one thing that will impact their ability to get on the right 
side of that divide in the years to come.
    Mrs. Blackburn. I thank you for that.
    Now, I will just note, the repack we think is also 
important as we look at the broadband deployment. And the 
estimates have been filed, and the audit process is started. 
And we need to give some time for that to play out. But we are 
going to be watching the repack to be sure it is conducted 
efficiently and on time so the spectrum is put to work.
    At this time, I yield 5 minutes to the ranking member, Mr. 
Doyle, for questions.
    Mr. Doyle. Thank you very much.
    Commissioner Clyburn, let me ask you, with regards to the 
open internet and the comments that are coming in. When you 
talk to people and review comments about the open internet 
order, what gives you pause in repealing the rule?
    Ms. Clyburn. What gives me pause is hearing what they say 
they need and what the internet enables. In the conversations, 
a lot of times we only talk about one part of the equation. But 
if you are really talking about an equation, you are talking 
about at least two parts. What is the investment? What do 
people need? And what they can afford? So we really, really 
have to talk about what this investment means in the 
communities, what expectations they have when they are starting 
their businesses and the like. And what I am hearing from 
people is they want options, they want access, they want 
opportunities, and they want to be protected by an agency that 
I am afraid right now is turning their back on.
    Mr. Doyle. Thank you.
    Commissioner O'Rielly, what kind of comment would cause you 
to oppose the Commission's open internet order, current 
proposal?
    Mr. O'Rielly. Well, as I have said, I previously expressed 
my thoughts on the issue at length. And I am looking to the 
record to determine if anything changes my mind. I am looking 
for substantive comments over----
    Mr. Doyle. So give me an example of a substantive comment 
that would cause you----
    Mr. O'Rielly. Economic analysis and real evidence of harm 
to consumers, versus some of the material that I have been 
getting on the comments so far. I mean, people talk about 12 
million comments. But many of those comments are empty and 
devoid of any value, in my opinion.
    Mr. Doyle. I am sure there are a few empty and devoid in 
there. But amongst the 12.3 million, I would imagine there are 
some that address some of the concerns you have just mentioned 
too. And I hope you do go through those comments. And we will 
hold you to that kind of analysis.
    Chairman Pai, the same question for you. What kind of 
comment would cause you to change your mind and not go forward?
    Mr. Pai. I think, Congressman, as Commissioner O'Rielly 
pointed out, if there is an economic analysis that shows 
credibly that infrastructure investment is increased 
dramatically, if--in response to some of our inquiries that we 
hear from people in the internet, I guess from startups to 
consumers, that there is credible evidence of these evidence, 
or the sine qua non of an open internet, and that, without 
them, there is no way that they would be able to thrive, that 
the America's overall internet economy would suffer. That is 
some of the evidence that we take seriously. And that is part 
of the reason, as I had said last week at my confirmation 
hearing, that we did not want to issue a declaratory ruling, as 
some urged the FCC to do, to simply decree, by administrative 
fiat, that these rules would be null and void. We wanted to 
have a full and fair notice and comment process to ensure that 
we heard those voices.
    Mr. Doyle. Well, I hope you are looking at that. I will 
hold you to that analysis. And I hope that as these comments 
are coming in--and 12.3 million comments, at least in the time 
I have been in this Congress, is more public comment than I 
have seen on an any other issue before the FCC. I am certain 
amongst them are that type of analysis, and I hope you pay 
attention to it.
    Let me ask you another question, Mr. Chairman. The context 
of the Open Internet Order, it seems to me that the analysis 
that you have cited about ISP investment seems to be one-sided. 
You talk about broadband investment by ISPs alone as an 
indication of the health of the marketplace, but you discount 
investments that are being made by edge providers. You know, if 
the thesis of an Open Internet Order was to promote this 
virtuous cycle of investment and innovation online, why aren't 
you talking about edge providers, the investments that they are 
making and the jobs that they are creating?
    Mr. Pai. I appreciate the question, Congressman. Obviously, 
everyone, as Chairman Blackburn pointed out, favors a free and 
open internet. The great challenge, however, is that there are 
millions of Americans--and I visited them--from Wardensville, 
West Virginia, to Mission, South Dakota, are on the wrong side 
of the divide. They are not getting the access they need to be 
able to participate in the digital economy. And to the extent 
that these rules are impacting infrastructure investment, my 
fear is that those folks are going to be left out of some of 
the benefits that we get in terms of better education and 
healthcare, and the like.
    And so we want to understand how are these rules impacting 
infrastructure investment, and, along with that, what are the 
concomitant effects of greater infrastructure investment on 
those types of companies?
    You know, I visited, as I pointed out in testimony before 
in another committee, I have been to feedlots in Allen, Kansas. 
And I have seen the power that broadband can bring in terms of 
greater agricultural productivity.
    Two weeks ago, I was in Augusta Health in Fishersville, 
Virginia. And I saw the power that a broadband connection can 
have to treating an emergency room patient before the patient 
even arrives at the hospital. I mean, these are critical 
applications. And so, obviously, going forward, there are 
greater dimensions than just infrastructure investment. But 
those core investments in the network are critical if every 
American is going to be able to thrive in the 21 century.
    Mr. Doyle. Madam Chair, I see my time has expired. But I 
hope we have a chance to submit more questions to the FCC for 
response.
    Mrs. Blackburn. The gentleman's request is noted.
    Mr. Doyle. Thank you.
    Mrs. Blackburn. I now recognize the chairman of the full 
committee, Mr. Walden.
    Mr. Walden. Thank you, Chairman. I appreciate that. And, 
again, to all our Commissioners, thank you for enlightening us 
with your comments and your testimony.
    Chairman Pai, there has been talk of uncertainty, continued 
uncertainty, around future of net neutrality. Are you opposed 
to net neutrality?
    Mr. Pai. Congressman, I have consistently said I favor free 
and open internet, as I think many members of this committee 
and most Americans do.
    Mr. Walden. All right. Commissioner Clyburn, are you 
opposed to net neutrality?
    Ms. Clyburn. I am not opposed to net neutrality. I am in 
favor, but using the strongest legal tools at our disposal to 
uphold it.
    Mr. Walden. Commissioner O'Rielly, are you opposed to net 
neutrality?
    Mr. O'Rielly. I agree with the Chairman. I support an open 
internet. I determined net neutrality means so many different 
things these days than it once did, so I can't--having signed 
up for net neutrality is--currently, the definition means that 
every packet has to be treated identically. And that, to me, is 
not supporting by the current activities of the internet. So I 
don't support that definition of net neutrality, no.
    Mr. Walden. Well, I know you have to make some decisions 
based on the comments, but I guess--one of my questions is, the 
reply comments are due fairly soon. And, Chairman Pai, do you 
expect to act quickly once the record closes?
    Mr. Pai. Congressman----
    Mr. Walden. What are your thoughts in terms of time lines, 
not in terms of your decision?
    Mr. Pai. Mr. Chairman, we are going to move promptly as we 
can. But, obviously, there is a voluminous record, as Ranking 
Member Doyle pointed out. And we are bound by the 
Administrative Procedure Act, in section 706 thereof, to find 
substantial evidence for whatever conclusion we reach. And we 
are going to review the record fully and fairly to make sure we 
make the appropriate judgement. And we are more concerned with 
getting it right than getting it done quickly.
    Mr. Walden. As you know, part of what we are working on 
today is a continuation from the last Congress in terms of 
getting more transparency in the process at the FCC, making 
more of what you do more public sooner, so more people can 
participate in the process that we all value.
    Are there issues in this draft that we are looking at? It 
is a discussion draft, too, for all my colleagues. We put it 
out there well in advance so we can get input and make it 
bipartisan, hopefully. And I think there are bipartisan 
positions in it.
    Would you care to comment about what we are putting forward 
and your thoughts on it, and how the Commission might be 
affected by implementation of the exchanges?
    Mr. Pai. Thank you, Mr. Chairman. I think the process 
reforms suggested in the draft bill are largely improvements 
upon the way the FCC does business. And I find myself broadly 
in support, for example. I think there is bipartisan agreement 
on relaxing the Sunshine Act restriction. I love seeing my 
fellow Commissioners here at the witness table. I would love to 
see them together at the Commission more often so that we can 
collaborate in ways that benefit the public interest and the 
FCC's decision making.
    Mr. Walden. That has been a bipartisan piece of this 
discussion draft, I think, all along.
    Commissioner Clyburn, do you wish to comment on some of 
this? I know things have shifted at the committee since we last 
took this matter--or at the Commission.
    Ms. Clyburn. I noticed.
    Mr. Walden. Yes.
    Are you more in favor of more of the transparency 
provisions in our bill now or----
    Ms. Clyburn. Well, I will just broadly say, I am more in 
favor of transparency. I am more in favor----
    Mr. Walden. I know you are.
    Ms. Clyburn [continuing]. Of us being able to do, 
especially the last--you know, I have been talking about that 
for a number of years. If there is not a final decisionmaking 
process, you know, before us, us being able to talk about 
things building up to. And so I think that would, with the 
proper notice and proper protections, you know, that enhances 
transparency and decision making. I will be for any platform 
that will allow that to happen.
    Mr. Walden. And then making the draft text public ahead of 
time, more of that, that we propose, do you support that?
    Ms. Clyburn. Meaning our internal draft--we are still in an 
evaluation mode. So far, I haven't heard any major complaints.
    Mr. Walden. OK. Good.
    Commissioner O'Rielly, what about what we are putting 
forward here for consideration? Anything from----
    Mr. O'Rielly. I support the legislation--draft legislation 
that has been put before us. I think--I put 15 new ideas in my 
testimony that could be included, if you were so inclined to do 
so. I think that the text itself, you know, on Sunshine reform 
is valuable. I probably would go a little further, but--I am 
not trying to criticize the provision. I just know how often we 
would use it if it is drafted. But I really appreciate the 
things on, like, cost-benefit analysis, which has been so 
lacking in our decision making for so long. So I think it is a 
very important step for the committee.
    Mr. Walden. OK. Chairman Pai, do you want to comment on 
that?
    Mr. Pai. If I could just add one observation in addition to 
what I said previously. One caveat I would add for the 
committee's consideration is that in enforcement matters, for 
due process notice and other reasons, it is sometimes maybe 
impracticable for us to publish those decisions in advance of a 
Commission vote. And so that is the one note of caution I would 
add.
    We are obviously, as Commissioner Clyburn pointed out, in 
favor of transparency. But there are different considerations 
when it comes to law enforcement matters.
    Mr. Walden. All right. That is a good point.
    Thank you, Madam Chair. I realize my time has expired. 
Again, thanks to all of you. We appreciate your suggestions. We 
appreciate your counsel and how we might get this right, 
because, indeed, that is what we want to do is make the FCC the 
role model for good transparent public process.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone for 5 minutes.
    Mr. Pallone. Thank you, Madam Chairwoman.
    I wanted to ask at least two questions, one to you, 
Chairman, and one to Commissioner Clyburn. So my question to 
the Chairman is: Numerous press accounts have detailed how your 
policies have benefited Sinclair Broadcast Group. There has 
also been speculation that the Trump administration has been in 
touch with your office about a number of these policies. So I 
wanted to give you a chance to respond to those allegations. 
And specifically, can you tell us what the administration has 
said, either to you or to anyone in your office about Sinclair 
or the UHF discount?
    Mr. Pai. Thank you for the question, Congressman. No one in 
the White House, or the administration generally, has made any 
representations to me about any FCC proceeding relating to that 
company. They have not asked me to take any particular action 
or expressed the views on the merits, and certainly not with 
respect to the UHF discount.
    Mr. Pallone. Now, what about the press accounts that have 
detailed how your policies have benefited Sinclair Broadcast 
Group. Did you want to respond to that?
    Mr. Pai. Congressman, I would be happy to do so. If you 
look at any of regulatory actions, they are not designed to 
benefit any particular company or segment of the industry. They 
are simply meant to take a view of the marketplace as it 
stands, and the law as it has been written by Congress. And 
with respect to the UHF discount, it is a pretty simple matter. 
As I pointed out in my dissent a year and a half ago, that to 
the extent the agency considers the UHF discount reforms, it 
also has to consider the national cap. Now, I am not 
presupposing what the UHF discount policy should be or what the 
national cap should be. But the point was simply made then, and 
I make to you today, is that the two go together; one cannot 
consider A without considering B.
    Mr. Pallone. Thank you.
    Let me ask Commissioner Clyburn. I plan to file comments at 
the FCC in the next few weeks that explain how maintaining net 
neutrality protections at the FCC is essential to protecting 
free speech online and to creating jobs across the country.
    Now, the GOP members of the Commission focus on the legal 
authority of the FCC but, in my opinion, ignore the benefits of 
net neutrality that would be lost if it is repealed. I think 
the GOP plan details potential cost of regulations without 
mentioning these benefits. So I just wanted to ask you if you 
could tell me what, in your opinion, benefits exist with strong 
net neutrality protections at the FCC and what will be lost 
with the repeal?
    Ms. Clyburn. In terms of the benefits, particularly, I 
mentioned to you that I was in Appalachia. When you have a 
small business owner that might be worried whether her Web site 
or her experience would be throttled or negatively impacted, 
that is the type of uncertainty that no small business should 
worry about when it comes to the most enabling platform of our 
time.
    You know, when it comes to people being able to access, you 
know, a healthcare Web site or their professional--healthcare 
professional, for anybody to wonder whether or not some traffic 
would be favored one or the other, that is a very unsettling. 
So when we talk about strong, open internet rules, what we are 
talking about is the capacity for all of our communities, all 
of our businesses, all of our individuals to have access, to be 
better them, thems, to be better business owners, to have the 
access to content that will enable, educate, and inspire.
    So it is very important for the rules of the road to be 
clear for people to know that they are protected, for this 
platform to be open and free and transparent. If not, you are 
going to have bottlenecks that will throttle experiences and 
throttle economic and other opportunities.
    Mr. Pallone. Thank you so much.
    Let me go back to the Chairman, since I have time for a 
third question.
    Last week, I introduced the Viewer Protection Act, and this 
bill would provide extra funds for the incentive auction 
repacking process to ensure that consumers don't lose access to 
the local stations that they can rely on. And I wanted to thank 
you for your prior commitment to making sure that the stations 
will not be forced off the air during this process. And I also 
appreciate your statements that you believe that Congress needs 
to act to provide additional to funds to this effort.
    Now, one issue in my bill that I think has been overlooked 
is making sure the consumers are properly educated about the 
process and what they need to do to keep their signal. And I am 
particularly concerned about minority communities that may rely 
on foreign language stations.
    Can you, Chairman, walk us through how much funding the FCC 
put aside for consumer education and explain your plans to make 
sure consumers know how to keep their signal? I guess you have 
20 seconds, but we will see.
    Mr. Pai. Thank you for the question, Congressman.
    And first and foremost, I commend you for that legislation. 
I think you have tackled one of the issues that is first and 
foremost in the needs of viewers around the country. The FCC 
has not been allocated funding by Congress specifically for 
that function. To the extent that we can, we obviously want to 
do as much outreach as possible to let people know if there is 
going to be a channel reassignment or other regulatory decision 
that might impact their ability to view the stations of their 
choice. And so I would be happy to work with you and your staff 
on your bill and going forward.
    Mr. Pallone. Thank you.
    And thank you, Madam Chairwoman.
    Mrs. Blackburn. The gentleman yields back.
    Vice Chairman Lance, you are recognized for 5 minutes for 
questions.
    Mr. Lance. Thank you very much, Madam Chair.
    Regardless of your opinion on the 2015 internet rules, I 
think there is at least one matter on which we should be able 
to agree, that a legislative fix is preferable to the ping-
ponging we have seen play out recently at the FCC. Anything the 
FCC has done in this policy space has proven to be temporary. 
And I don't think that is good public policy. I believe a vast 
amount of the agency's scarce resources have gone into this 
issue for the last 10 years or so. And so to the Chair and the 
distinguished members of the Commission, I ask each of you the 
following question:
    What would provide greater certainty for broadband internet 
providers, online innovators, and internet users, continually 
changing regulatory regimes or legislation to establish clear 
authority and bright-line rules of the road that protect 
consumers and innovators and encourage investment?
    And I will start with you, Mr. Chairman.
    Mr. Pai. Thank you, Congressman. I believe that legislation 
would provide greater certainty to consumers and companies 
alike.
    Mr. Lance. Madam Commissioner?
    Ms. Clyburn. I believe we already have certainty. I believe 
we have already followed your guidelines with Title II. Title 
II is a part of a congressional creation. And Title II has been 
upheld by the courts.
    Mr. Lance. And if I might follow up, you don't favor any 
amendment of Title II in this area?
    Ms. Clyburn. I will reserve judgment on that. I will favor 
anything that will improve and enhance our ability to connect 
America.
    Mr. Lance. And was Title II initiated, as I understand it, 
in the 1930s? Is that right?
    Ms. Clyburn. You are probably right. Subject to check. So I 
get a D-minus for not knowing the answer to that precisely. I 
will get that back to you.
    Mr. Lance. If you get a D-minus, I am probably at the level 
of F. So we will work together on that.
    Commissioner O'Rielly.
    Mr. O'Rielly. I fully support legislation. It is the only 
way we are going to get lasting peace on the issue. My 
colleague highlighted, I think in her comments, rules of the 
road need to be clear. But there cannot be clear rules of the 
road when you have a general conduct standard that roves about 
and does whatever it wants at any time done by the bureau 
staff. So I think that legislation is the only way to address 
this issue.
    Mr. Lance. And Commissioner O'Rielly, has there ever been a 
definitive ruling by the Supreme Court of the United States on 
this issue?
    Mr. O'Rielly. No, there has not.
    Mr. Lance. Is that the consensus of the Commission, that 
this has not been fully addressed by the Supreme Court? 
Commissioner Pai? Chairman Pai?
    Mr. Pai. Congressman, when you say--with respect to this, 
the Supreme Court in the Brand X case in 2005 blessed the FCC's 
application of Title I regulation to broadband.
    Mr. Lance. Brand X, roughly 10 years ago, a little more 
than 10 years ago. Yes.
    Given the response of the members of the FCC, and, of 
course, I hope there will be a full complement of 
Commissioners, I think that we should continue to pursue this 
question. Because I think the public deserves certainty in this 
area, as do those in the community, but certainly, in my 
judgment, this is paramount for the American people.
    Another issue, Chairman Pai, it is critically important 
that the United States win the race to 5G as it means 
significant investment in job creation here. A recent report 
has suggested that 5G will bring 3 million new jobs and a half 
a trillion dollars in increased GDP. I am concerned that other 
countries may get there first, including China, Japan, and even 
the EU, a series of countries. In your opinion, how important 
is it to make sure that the United States wins the race 
regarding 5G?
    Mr. Pai. It is absolutely critical, Congressman. And I say 
that not just out of parochial concerns, but I do think that 
America's internet economy has demonstrated itself over the 
years to be one of the most innovative. And 5G heralds a 
special promise, I think, when it comes to the ability of high 
bandwidth applications like virtual reality, and augmented 
reality, and low bandwidth applications like the internet of 
things. We want those companies, those technologies, to develop 
in the United States. Those are high-quality jobs that could 
create a huge amount of opportunity across the country. And 
speaking for the FCC, at least, I think that we are focused on 
securing that prize as best we can for the United States.
    Mr. Lance. Thank you.
    Commissioner Clyburn, your thoughts?
    Ms. Clyburn. I am looking forward to working and to 
continue to do things in an expedited manner. But we need to 
make sure that it is ubiquitous. No part of this country should 
be without the opportunities for what 5G has to offer, and only 
with local and Federal engagement will we be able to win that 
race.
    Mr. Lance. Thank you. My time has expired.
    And I will follow up with you, Commissioner O'Rielly, 
later.
    Thank you, Madam Chair.
    Mrs. Blackburn. And, Mr. Welch, you are recognized for 5 
minutes.
    Mr. Welch. Thank you, very much, Madam Chair. I have 5 
minutes, and I want to have 3 points. One, about the open 
internet. Number two, rural broadband. And, number three, the 
mobility fund.
    Just to comment on the open internet, everybody says they 
are for an open internet. The question I have is why change the 
existing regime where everyone agrees there is an open 
internet? And what I understand is the ISPs are afraid of, 
quote, ``heavy regulation,'' but say they won't do anything 
different. But a lot of folks in the public are concerned that 
that won't be the case. So that is a question, I think, the 
proponents of change have to answer: Why change it?
    Second, on rural broadband. Chairman Pai, as you know, it 
is incredibly important to those of us in Vermont, working with 
Mr. Cramer, as well, to have open internet. Rural America is 
being left behind. And the promise of the 1996 act has been 
broken. Rural internet is not the same speeds and the same 
capacity as we have in urban areas. There is now a potential 
opportunity with the repacking in the white space, as you are 
aware. And there is a challenge. Because we want to make sure 
that our broadcasters have signals that are strong and they 
don't suffer interference.
    But there are many now who are seeing that this white space 
is a technological development that provides an opportunity for 
inexpensive build out, in effect, of broadband. And the 
question I have for you is where you are on that and where the 
FCC is on that. Anything we can do to get that broadband out, 
and the deployment is a financial issue, I want to do.
    So can you address that?
    Mr. Pai. Absolutely, Congressman. I share your ethos. As 
you just put it anything we can do to get the broadband out 
there.
    Mr. Welch. I am talking white space now though.
    Mr. Pai. Right. And with respect to white spaces, we are 
still in the early stages of study. Just a couple of weeks ago, 
I visited Microsoft's project in South Boston, Virginia, and I 
talked to some of the affected students about that issue. We 
are actively studying it and trying to figure out ways to work 
with all stakeholders to figure out the right way for it.
    Mr. Welch. All right. So if we can find this technological 
sweet spot where we are able to protect the signal of our 
broadcasters. That is important in rural America too. We want 
to get our TV stations, our local news. But we have that white 
space where there is a promising opportunity, affordably, to 
build out, you are going to be aggressive?
    Mr. Pai. If the facts warrant it and the law permits it, 
this FCC will not stand idly by.
    Mr. Welch. Ms. Clyburn? Commissioner Clyburn?
    Ms. Clyburn. I have long since talked about the promises of 
unlicensed and white spaces providing opportunities, 
particularly in rural communities and communities where the 
business case cannot be made. The promise is there, and I will 
definitely be a wind beneath that, to push that along.
    Mr. Welch. Thank you.
    And Mr. O'Rielly? Commissioner O'Rielly?
    Mr. O'Rielly. So I support white spaces and have for a long 
time. I will say I don't support them setting aside full power 
broadcast stations. So if it becomes a fight between the two in 
the broadcast band, I think----
    Mr. Welch. Let me just say, as a rural person, I am urging 
you and the industry to find a way to protect that broadband 
signal but to get broadband into rural areas. It has got to 
happen.
    Mobility fund, a second issue that is really important to 
us in rural America. There is going to be action on that. And 
the question I have, Chairman Pai, some--depending on how the 
project is--the information is provided, there will be an 
opportunity for challenge from some of the rural providers who 
can test how the decisions are made. And they have got to be 
given an opportunity to do that.
    Can you assure us that the Commission is moving forward 
with the rule next week that will ensure that the data 
collection process will lead to a coverage map that accurately, 
accurately, reflects the current mobile broadband makeup and 
that it allows for smaller carriers--and this is really 
important to us--to have adequate time to potentially challenge 
data that they believe on their own work is inaccurate? 
Chairman.
    Mr. Pai. That is certainly my aspiration, Congressman. And 
working with my colleagues in the next 9 days, we hope to get 
across the finish line with a work product that does that.
    Mr. Welch. You are going to let them have a seat at the 
table to challenge?
    Mr. Pai. The carriers or my colleagues?
    Mr. Welch. Right.
    Mr. Pai. Absolutely. That is the goal. We want to have a 
robust open challenge process----
    Mr. Welch. Commissioner Clyburn?
    Ms. Clyburn. You heard that last thing on the record.
    You know, one of the things that I have been pushing--and 
the Chair will affirm this. I have been pushing, you know, for 
a robust, open challenge process. That is important. And it is 
important for that information to be granular and Form 477. We 
have been pushing for that.
    Mr. Welch. Thank you.
    Madam Chair, my last 4 seconds I want to say thank you to 
Commissioner Clyburn.
    Mrs. Blackburn. I would concur with that. But why don't we 
give Commissioner O'Rielly the opportunity to answer the 
question?
    Mr. Welch. If you are giving me the time, I give it to him.
    Mrs. Blackburn. I am giving you the question to allow him 
to answer.
    Mr. Welch. Thank you.
    Mr. O'Rielly. That is OK. I am fine. I am good.
    Mrs. Blackburn. So the gentleman yields back.
    Mr. Shimkus, you are recognized for 5 minutes.
    Mr. Shimkus. Thank you, Madam Chair. As Peter Welch has 
shown, there are so many questions and just so little time to 
deal with what you all deal with on a day-to-day basis. So I am 
going to pick a few.
    First of all, it is no surprise--just to Chairman Pai, on 
Next Generation 911. You know, we passed that Advancement Act 
of 2012. Anna and I have talked about this between ourselves 
the last couple of weeks. There was a grant program designed 
but was never initiated by the FCC. We all know money is 
needed. But what else can be done to help move Next Generation 
911 forward?
    Mr. Pai. Congressman, I appreciate the question.
    We certainly are grateful for the promise of NG 911. But 
that promise has yet to be realized in great swaths of the 
country. And as Chairman Blackburn pointed out, I was in 
Tennessee with her earlier this year. And I visited a 911 call 
center that is using next gen 911 to deliver functionality that 
traditional 911 call centers simply don't have. And so we at 
the FCC are broadly supportive of any efforts that we can take 
to promote NG 911. It is an IP-based technology, as you know. 
So promoting the IP-based transition, encouraging the 
transition away from the old, fading TDM networks towards IP-
based networks is absolutely vital.
    Without it, some of these public safety answering points 
which don't have the money themselves to fund that transition 
are going to be left in the lurge. And that is the number one 
thing we can do. We would be happy to work with members of the 
committee to figure out if there are legislative tools as well 
that we can support.
    Mr. Shimkus. Because we know there was a grant program 
authorized but never initiated. So we need to find out. 
Obviously, that is an issue. But then what else can we do? I do 
think the community is struggling to try to get to where they 
want to be, and time is of an essence in the 911 world as we 
all know.
    Let me go to Commissioner O'Rielly and just talk--we have 
had other subcommittee hearings. And, you know, the buzz is 
that there may or may not be an infrastructure bill. And we 
would always say--I think members on this subcommittee, both 
sides, would say if there is an infrastructure bill, then 
obviously broadband deployment areas that are identified 
appropriately through a good mapping system should be aided and 
assisted.
    So if there was direct funding to help deployment, what 
would be your vision on how that could best occur?
    Mr. O'Rielly. My argument to the subcommittee in my 
testimony is that the committee should look to our high cost 
program and run a universal service as a mechanism to 
distribute the funding.
    In the previous demos under the last administration, we had 
an NTIA program and some at the Department of Agriculture. I 
think those programs were suspect and had a lot of 
difficulties. We have difficulties in our universal service 
programs no doubt. But high cost has been something we spend a 
considerable amount of time in trying to minimize the amount of 
subsidy needed and to target the funding to stretch as far as 
possible, and I think that is a valuable way to go.
    Mr. Shimkus. Thank you. And then, last but not least, 
Commissioner Clyburn, of course, appreciate your passion, which 
has always been there. But I think your voice is a little bit 
louder now, which is great.
    There is really a two-part question. Can mobile broadband 
now fill some of the gaps in unserved areas? And, if not, 
because could you guys follow what is coming next sooner than a 
lot of us do. If not, is that coming around soon?
    Ms. Clyburn. Well, I mentioned that I was in Representative 
Johnson's district. And mobile broadband is definitely 
necessary, especially on those roads where I did not have 
service, especially in those households where they can only 
afford one connection.
    So mobile broadband is definitely--you know, has to be 
front and center, which is why we are moving to the next phase 
of a mobility fund. But we cannot, you know, drop the ball when 
it comes to legacy. Because there are certain things you cannot 
do on a mobile.
    So it is a complement to the entire telecommunications and 
communications ecosystem. But we need to go where the people 
are. Over 300 million of us have mobile connectivity, but it is 
not all created equal.
    Mr. Shimkus. Thank you. And my colleague, Peter Welch, 
mentioned the white space issue, so I am not going to talk 
about that. But I do want to address a bill that we passed 
through here, H.R. 460, which addresses the call completion 
problem that occurs. It really is addressing more 
accountability than just advisory or--what is you all's 
position on that bill?
    Mr. Pai. Congressman, I haven't had a chance to study all 
the particulars about the bill. But I can say that I do support 
efforts to give the Commission ample authority to tackle all 
parts of the problem, not just the carriers but the 
intermediate providers, and others who are in the chain, so to 
speak, who might affect the call to a rural area.
    Mr. Shimkus. Anyone else want to comment on that?
    Ms. Clyburn. We have taken a proactive position in terms of 
holding people accountable all along, you know, from the time 
you dial a phone until that expectation on the other end. There 
are a lot of variables there and a couple of players there. 
When you have two, and three, and four players between that 
call, making that call and completing that call, that is a 
problem that we are identifying and need to fix.
    Mr. O'Rielly. One of the reasons that it exists is because 
some of our old, antiquated rules favor arbitrage. And so that 
is something we have to get to the fundamental issue going 
forward.
    Mr. Shimkus. Thank you, Madam Chair.
    Mrs. Blackburn. Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair. Thanks to all of you 
for being here today. This is, as always, pretty fascinating 
talking about a lot of these different issues.
    A lot of us on this committee, on both sides of the aisle, 
are obviously very concerned about wireless in rural areas, 
rural broadband, all those issues. I usually go through a 
litany of reasons why that is so important. But I am not going 
to do that. I just want to say one thing, though, before I ask 
some questions.
    This isn't just a rural/urban issue, as you all know. These 
things are tied together. So in Iowa, for example, like in 
Vermont or North Dakota, or whatever, if we have an urban 
hospital that wants to do telemedicine with rural areas, it is 
great that that urban hospital has sufficient bandwidth to be 
able to do that. But, obviously, if a critical access hospital 
or a skilled nursing facility, whatever the case may be, and 
rural areas doesn't, then that urban area is going to be 
affected as well, because that hospital cannot connect 
sufficiently with those folks.
    So it is not just rural/urban. Those areas are tied 
together. And I think we often forget about that, and we just 
think in rural terms or in urban terms. Everybody is in this 
together. That is my speech for today. Now I will ask some 
questions.
    Chairman Pai, as you know, I was the original drafter of 
the Rural Wireless Access Act. We have a lot of issues, as I 
like to say, with garbage-in/garbage-out kinds of issues when 
it comes to mapping and how we are trying to figure out what 
areas are covered and which areas are not. And that legislation 
would require the FCC to establish standard service 
definitions, collect its data on wireless coverage in a 
reliable and efficient way. Because I think we can all agree 
that that hasn't necessarily been the case in the past. And I 
understand that the FCC has recognized the problems with the 
data.
    Where are we on that now with creating a new data set? And 
will it meet the requirements of my bill for the data to be 
robust, and to be reliable and standardized? Chairman?
    Mr. Pai. It is certainly our hope, Congressman, that it is 
worthy of the legislation that I commend you, too, for 
advancing. Next week we are going to be voting on some of those 
steps. And it has been a difficult process, in all candor. We 
had a decision to make at the get-go, do we rely on the Form's 
477data that we got with respect to the mobility fund or do we 
create essentially a Bespoke data collection? We decided to go 
down the latter road, because we recognized that some of the 
data we had wasn't sufficient.
    And so going forward we want to make sure that if the map 
says that there is coverage, there is, in fact, coverage. And 
if the map says there isn't coverage, then we direct the 
funding from the mobility fund to those areas.
    Mr. Loebsack. Well, can we get a commitment from you today 
that whatever you come up with will, in fact, meet the 
requirements of my bill?
    Mr. Pai. Again, I haven't seen the particulars of your bill 
recently, but certainly the spirit of it we will do our best to 
achieve. And we would be happy to take a look at the 
legislation and get back to you.
    Mr. Loebsack. I mean, it is pretty simple. It is making 
sure, to the best of our ability, obviously, that the data will 
be robust, reliable, and standardized. That is all we are 
looking for.
    Mr. Pai. That is certainly what is in the draft item that 
is public, and we will be voting on on August 3rd.
    Mr. Loebsack. Commissioner Clyburn?
    Ms. Clyburn. One of the challenges there is how do you get 
different providers to compress and conform in a uniform 
manner?
    Mr. Loebsack. Right.
    Ms. Clyburn. And that is the challenge here. But the 
objective is there. How do we mine, meld, and mesh that? That 
is the challenge that we are working to fix.
    Mr. Loebsack. And, Chairman Pai, you were in northwest Iowa 
not that long ago, actually. That is where I grew up, in Sioux 
City, up in that area, although I represent the southeast part 
of the State now. I have no doubt that when you were traveling 
between Sioux City and southwest Minnesota, you probably ran 
into some issues.
    Mr. Pai. It was incredible. Driving from Madelia down to 
Spencer, and Laurens, and then Sioux City, I mean, how many 
times I had to mention to my colleague in the car, you know, we 
are just going to have to talk now. Because, you know, we have 
the inability to check emails or make phone calls and the like. 
And it is really a gap. And that was just for our own 
convenience.
    Imagine if you are a patient who needs to make a 911 call, 
or imagine if you are a farmer whose productivity depends on 
having precision agriculture which, in turn, relies on 
connectivity. Those are the connections that really do matter.
    And so it is not just a professional interest for me, and I 
dare say for my colleagues, it is a personal interest to me as 
a rural American to make sure that your constituents, and all 
rural Americans, get that connectivity.
    Mrs. Blackburn. Mr. O'Rielly, do you want to mention 
anything?
    Mr. O'Rielly. I agree with the work we are going to do. I 
have been pushing for greater data. There is a cost as to how 
granular you can get, but I think it is very important.
    Mr. Loebsack. Well, I want to get this bill passed. I want 
to get it out of this committee. I want to get it on the floor. 
And I want to get it passed and signed into law by the 
President. Because I just think there is very, very significant 
bipartisan support for this.
    And, again, mentioning that it is not just the rural areas 
but their connection to the urban areas as well. It is 
absolutely critical. So thanks to all of you.
    And thank you, Madam Chair. And I yield back.
    Mrs. Blackburn. The gentleman yields back.
    At this time I recognize the chairman of the Subcommittee 
on Digital Commerce and Consumer Protection, Mr. Latta, for 5 
minutes.
    Mr. Latta. Well, thank you, very much, Madam Chair. And 
thank you, very much, to our distinguished panel. It is always 
great to have you before us, and we appreciate your testimony 
today.
    If I can start my question with you, Commissioner O'Rielly. 
And, again, I want to thank you again, you know, for showing 
interest and coming out to my district to speak to our folks 
just this past year. Because I think it is important that folks 
back home understand that the folks at the FCC are truly 
listening to their concerns.
    And I recently introduced a bill, H.R. 3289, that would 
require the FCC to list and describe all items to be adopted on 
delegated authority 48 hours prior to action being taken if 
those items are given a delegated authority identification 
number. This will ensure that the Commission is appropriately 
delegating items and not passing decisionmaking to others in 
cases where items pose new and novel questions of policy. I am 
pleased to see that my bill has been included in the discussion 
draft that is before us today.
    And based on your statement of support of my bill in the 
last Congress, I believe you agree with this policy. However, 
in your testimony you mention that this provision could go 
further. Would you mind expanding on the ways in which we could 
improve the language in the draft?
    Mr. O'Rielly. Sure. So the bill is identification and 
notification. The Commission is required to tell people when it 
is delegating authority, which is a step--improvement than we 
have today.
    But I think I should get to the second of the part 
question, is well, what do you do with the notification? Today, 
you know, it is to the Chairman's request on whether we, as a 
Commission, get an opportunity to vote on those items. In the 
last Commission I was voting about one out of every nine items. 
So eight out of nine items were being delegated and addressed 
by staff. We should have the ability to pull up some items that 
we think should be voted on by the full Commission. But we have 
to do that in a way, in my opinion, that doesn't delay the 
items.
    And so I put forward a plan that I thought would be a way 
to meld both parts of the equation so we can get better 
accountability but also do it in a timely manner. And I think 
that would help frame the issue better.
    Mr. Latta. Well, thank you.
    Chairman Pai, if I could turn to you. I also want to thank 
you for coming out to my district a couple years ago to meet 
with my smaller telecoms. And I really appreciate it. Because, 
also, from your rural roots, where you came from, you 
understand the issues that we all have out in our rural section 
of the country.
    Under Section 161 of the communications act directs the FCC 
to review its regulations every 2 years and to repeal or modify 
those rules it determines have been made unnecessary due to 
economic competition.
    Does the FCC specifically and separately consider, on a 
regular basis, the impact of its rules on the smaller providers 
and wouldn't the public's interests benefit from a regular 
review of whether there is a good cause to exempt small 
entities from these FCC regulations?
    Mr. Pai. Great question, Congressman. I do think that as a 
part of our biannual review, or simply as a standalone project, 
it would be worthwhile for the FCC to think about specifically 
the impact that our regulations have on small businesses. These 
are the companies that simply don't have the wherewithal to 
hire the lawyers, the accountants, and others who are filling 
out the paperwork and otherwise helping them comply with the 
agency's rules. And I think we need to be sensitive to that 
going forward.
    Mr. Latta. Let me follow up with another question to you, 
Chairman.
    Are there other infrastructure deployment issues that the 
FCC currently lacks the authority to address? And, if so, could 
you highlight some of the areas additional authority from 
Congress to the FCC may be needed?
    Mr. Pai. Thanks for the question. There are several of 
them.
    First it would be the Gigabit Opportunity Act which I 
understand has been introduced by Representative Collins, Doug 
Collins, from the House side, and Senators Capito and Coons on 
the Senate side. That would go a long way, I think, to 
providing not just the FCC but the country with the blueprints 
for greater broadband deployment in low income, urban, and 
rural areas.
    Secondly, it would be helpful to have additional authority 
with respect to pole attachments. Right now, we don't have 
authority over all of the poles that are used by broadband 
providers to attach the infrastructure necessary for high speed 
internet access. It would be helpful to have that.
    Third, it doesn't necessarily effect the FCC directly, but 
making Dig Once the law of the land would be extremely helpful. 
I know there is bipartisan support for it, and it would be 
great to see that advanced into law as well.
    Fourth, and finally, I don't know if it necessarily 
requires congressional action, but we are trying to take 
whatever steps we can to facilitate greater coordination among 
Federal agencies so that if you are looking to site 
infrastructure on Federal lands, you have, for example, a 
single point of contact at various agencies. And if there are 
ways that Congress could urge that effort forward, that would 
be extremely helpful.
    Mr. Latta. Thank you, very much, Madam Chair. My time is 
about to expire, and I yield back.
    Mrs. Blackburn. Gentleman yields back.
    And at this time we go to the author of Dig Once, Ms. 
Eshoo, for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairman. And welcome, Mr. 
Chairman, and members of the Commission. I hope that the next 
time we meet that we will have a full Commission. It is 
wonderful to see you, and it is important that you are here.
    I have an observation first. And it is with some curiosity 
that I raise this. The chairman of the full committee asked 
each one of the Commissioners if they supported net neutrality. 
And each one said yes with some additional comments.
    Now, Chairman Pai, your chairmanship rests on the altar of 
unraveling net neutrality as we know it. So, with all due 
respect to you, I don't think it is a credible statement for 
you to say that you support it. Because everything that I have 
read about what you have said is the promise to unravel net 
neutrality with its protections. And so it is easy to say, ``I 
am against blocking, I am against throttling, I am against'' 
whatever. Who is going to enforce that? Who? How? And so it is 
an observation. But I think it is an important one to place on 
the record.
    I have raised this before in previous hearings with 
previous witnesses when they bring up the whole economic case 
and the chilling of investment in our country because of the 
handful of sections that are part of Title II that were applied 
to net neutrality. And we know that publicly held companies and 
their CEOs, when they make a statement to their shareholders, 
under penalty of law, have to be truthful.
    And I can't find anything in any record that States where a 
CEO has said because of Title II there is a chill on the 
investments of the company that I represent. Now, you say you 
are studying it. Are you going to compare the statements made 
by executives to their shareholders, which are said, under 
penalty of law have to be truthful, to the comments that are 
filed by those same companies in the proceeding that you are 
undertaking?
    Mr. Pai. Congresswoman, we are going to test all the facts 
in the record.
    Ms. Eshoo. No. I am asking you a specific question.
    Mr. Pai. Yes.
    Ms. Eshoo. Are you going to take the comments of the CEOs 
to their shareholders and compare and contrast them with the 
comments that they place to the FCC on this matter?
    Mr. Pai. If those facts are in the record, absolutely.
    Ms. Eshoo. You are going to compare and contrast them?
    Mr. Pai. We will look at all relevant facts in the record.
    Ms. Eshoo. Are you going to compare and contrast them?
    Mr. Pai. Well, I mean, depends on what facts are in the 
record. Yes. Absolutely.
    Ms. Eshoo. All right. That is fine.
    Mr. Pai.. Including the 10K's that I cited, and the 
statements that are in the record.
    Ms. Eshoo. I think what is important to note here is that a 
recent poll found that 70 percent of voters and 71 percent of 
Republicans across the country think the internet has improved 
over the last few years. So this is not just the big ISPs. We 
are talking about everyone, everyone that is a part of this 
ecosystem. And I really think that that is being overlooked. I 
think it is disturbing that you have refused to comply, fully 
comply, with the FOIA request asking for the text of more than 
47,000 informal net neutrality complaints filed with the FCC.
    I think that you are being selective about what you want to 
read and what you want to hear. If it fits with the position 
that you stated before you became Chairman and since you have 
became Chairman, then it doesn't count. And I--so I don't--you 
know, you are not a level playing field. And that is your 
prerogative. But I don't think, you know, coming here today and 
saying ``I am for net neutrality'' is really a credible 
statement.
    I want to raise RT, which is Russian television, but they 
changed the name so that people wouldn't know who they were. 
They are operating in our country. And I would like to know--
and I didn't understand your response. You stated what you can 
do at the Commission. Can you tell us what your commitment is 
to do from the Commission? Because in a classified setting the 
Congress heard the intelligence community speak to it.
    In the declassified public document, it is replete with 
references to RT. They are operating in our country. And I 
would like to know what role you believe that the FCC should 
play in this. They are spreading propaganda in our country.
    Mr. Pai. Thank you, Congresswoman. The question here is 
with respect to the FCC's sponsorship identification.
    Ms. Eshoo. I understand.
    Mr. Pai. Those rules apply to broadcasters.
    Ms. Eshoo. Yes.
    Mr. Pai. So to the extent that RT or any entity is paying 
broadcasters for the----
    Ms. Eshoo. I want to know what you believe the FCC can do 
about this.
    Mr. Pai. Congresswoman, I was answering the question. It is 
with respect to the sponsorship ID rules, enforcing those 
rules. To the extent that RT or any entity has paid a 
broadcaster----
    Ms. Eshoo. Are you prepared to do that?
    Mr. Pai. We will always enforce our sponsorship ID rules, 
yes.
    Ms. Eshoo. Well, why haven't you begun to?
    Mrs. Blackburn. The gentlelady's time has expired.
    Ms. Eshoo. This is a public realm now.
    Mr. Pai. Congresswoman, I am not aware that there are----
    Ms. Eshoo. Have you read the declassified report?
    Mr. Pai. I have not, Congresswoman.
    Ms. Eshoo. I would like you to read that, and then I will 
follow up with you.
    Mr. Pai. I would be happy to do that.
    Ms. Eshoo. Thank you.
    Mrs. Blackburn. The gentlelady's time has expired.
    And now we go to Mr. Guthrie for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairman for yielding for the 
time. And as you have all heard me say before, and this is for 
Chairman Pai, I have worked with my friend, and enjoy working 
with my friend, Doris Matsui over the years on Spectrum issues. 
And just last week we had the opportunity to host a Spectrum 
Caucus panel on 5G.
    So I wanted to start by following up on some things we 
learned through the panel discussion and open by asking you 
about what is in the Spectrum pipeline.
    So, in addition to your work on millimeter wave and recent 
midband, the notice of inquiry, is the Commission also looking 
at reallocating other bands that the industry may be able to 
aggregate with existing licenses to create similarly large 
bandwidths, or are there additional bands in general that you 
are looking for future auction?
    Mr. Pai. Well, thank you, Congressman, and for your 
bipartisan work with Congresswoman Matsui. I think it goes to 
show that when it comes to Spectrum there are no Republicans, 
there are no Democrats. There are simply people who are 
interested in the future of wireless innovation.
    We at the FCC, too, have spoken with a bipartisan voice 
when it comes to Spectrum policy. In the Spectrum Frontiers 
Proceeding we teed up a number of bands above 24 gigahertz, as 
you are aware. We are actively studying that issue, including 
bands like 60 and 70 gigahertz to figure out if there are ways 
that we can allocate high or large swaths of Spectrum for high 
bandwidth applications.
    We are not content to rest on our laurels, however, and 
that is why we teed up for consideration next Thursday a 
midband NOI. This is the bands between 3.7 and 24 gigahertz. We 
focused, in particular, on 3.7, 5.9, and 6.4 gigahertz. But we 
have opened it up largely, as you will see in the Notice of 
Inquiry, for the public to tell us that there are other bands 
we should be thinking about.
    Our goal here is obviously to be as holistic as we can be 
to ensure that as much Spectrum, licensed and unlicensed, gets 
pushed into the commercial marketplace. That is the best way, I 
think, to give innovators they need to deliver wireless 
services.
    Mr. Guthrie. Can you lay out any timeframes, absence of 
statutory deadlines?
    Mr. Pai. There is no particular timeframe since this is a 
Notice of Inquiry. We anticipate a longer time period because 
we can't proceed, typically, from a Notice of Inquiry directly 
to final rules. But we are hopeful that given that this is an 
urgent issue, of course, that for the wireless consumers and 
innovators, we can move with relative dispatch to identify 
areas where there is consensus, move forward on those, and if 
there are trickier issues, bracket those for further 
discussion.
    Mr. Guthrie. Thank you. And, Commissioner O'Rielly, you 
have been vocal about potential deficiencies in the draft rules 
with a 3.5 gigahertz band. What steps should the Commission 
take to make such Spectrum more attractive for licensed mobile 
use, including to better support 5G service?
    Mr. O'Rielly. My apologies. So the Commission is looking at 
whether to change the rules regarding licensing for the one 
tier, the license tier, of the 3.5 gigahertz band. Renewability 
is an important issue that was ignored under the last 
Commission, and the lengths of the licenses themselves, the 
terms of the licenses are important.
    So both those functions, in my opinion, need to be changed. 
And we are looking at doing that. The Chairman has asked me to 
focus some of my time on this, and I am. And hopefully we will 
be able to look at that and a couple other issues. And my goal 
is to have that completed by the end of the year.
    Mr. Guthrie. Thank you. For all Commissioners, what lessons 
should we in Congress learn from the most recent auctions such 
as H block, AWS-3, 600 megahertz, that can be applied as we 
look to the future? We want to create the clearest possible 
rules of the road. So what can we build on? And what should we 
avoid?
    And I will start with the Chairman and move down.
    Mr. Pai. Boy, that is a good question. I think, first and 
foremost, is to give the FCC the flexibility that it needs to 
identify its Spectrum bands that are ripe for auction.
    Secondly, to urge the FCC to set up an auction process that 
allows all participants to compete fully and fairly for that 
Spectrum.
    And, third, to ensure, to the extent possible, that the FCC 
has the tools that it needs to ensure that that Spectrum is, in 
fact, used for the public benefit. So last September I outlined 
my proposal to increase the build-out requirements, 
particularly in rural areas, to ensure that if this public 
resource is being allocated through the auction process to a 
private entity, that private entity does, in fact, use it to 
benefit the public.
    Mr. Guthrie. Commissioner Clyburn.
    Ms. Clyburn. I have to build on that and ensure that we 
have efficiencies and the expectations are being met by those 
who win the right to build. Also, I have been pushing for 
smaller--you know, partial and smaller economic areas where it 
will indeed give persons regardless--entities, regardless of 
size, not just the big players, being able to bid in this 
space. That is important. Because those in your communities, 
those who have the capacity in your communities, who want to 
service a smaller footprint, they should be able to do so. And 
I think that lesson should continue in subsequent auctions.
    Mr. Guthrie. So in 10 seconds, can I kind of change it a 
little bit? Do you consider, Commissioner O'Rielly, the 
Spectrum Act a success?
    Mr. O'Rielly. I consider it a general success, allowing 
Spectrum to be made available, the amount of Spectrum available 
is beneficial. But I do believe--and this gets to the heart of 
your previous question--is that we imposed a number of policies 
that probably were problematic, restricted the number of 
bidders, restricted the licenses. That shouldn't have been 
included in the first place.
    We should have had a more open structure. And if you 
compare that to previous auctions, I think you will see that 
there is a differential between the two.
    Mr. Guthrie. Thank you for the answer. My time has expired. 
I yield back. Thank you.
    Mrs. Blackburn. The gentleman yields.
    Ms. Matsui for 5 minutes.
    Ms. Matsui. Thank you very much, Madam Chairwoman. I am a 
strong supporter of the FCC's Universal Service Programs, 
especially Lifeline and E-Rate programs which help families, 
schools, and libraries get connected. Chairman Pai, I have 
taken issue with many of the actions you have taken as 
Chairman.
    But one of the areas that is most troubling to me is the 
attack on Lifeline, a program that struggling Americans across 
the country count on. This small amount of support can make a 
huge difference in whether a family has phone and internet 
access. Lifeline means a parent can stay in touch with their 
child's school or has a phone number to put in a job 
application.
    Under the last administration, the FCC made a lot of 
progress to start the process of Lifeline reforms. As part of 
the FCC's 2015 Lifeline Modernization Order, the FCC began the 
process of creating a national verifier for eligibility. This 
is an important check on a system that would make huge progress 
in making sure Lifeline funding only goes where it is needed 
the most.
    Chairman Pai, could you provide us with a status update on 
where the FCC is with regards to implementing the national 
verifier?
    Mr. Pai. Thank you, Congresswoman. The national verifier is 
still not scheduled to be up and running until later this year, 
and it is not scheduled to be fully operational in all States 
until 2019. We are working actively with USAC to accelerate 
that timeframe to the maximum extent possible. Because as 
identified in the GAO report, many millions of dollars are 
being wasted in part because we cannot certify that every 
person getting a Lifeline subsidy is eligible for the program.
    Ms. Matsui. OK. I just really think that that is not very 
much progress at this point in time.
    Mr. Pai. This is the hand we were dealt, Congresswoman.
    Ms. Matsui. Well, can you commit to providing this 
committee with quarterly reports on what the Commission staff 
is doing to speed the implementation of the verifier?
    Mr. Pai. I would be more than happy to do that.
    Ms. Matsui. I think this is critically important. Because, 
you know, we should be implementing this reform so we know that 
we can implement against waste, fraud, and abuse instead of 
continuing to attacking Lifeline.
    I know that Commissioner Clyburn has really been a champion 
of this also. What can we do to strengthen E-Rate and Lifeline 
programs?
    Ms. Clyburn. We can ensure that we have the reports needed 
for us to better evaluate. What the Chairman did not say is 
some of the reports were put on the back burner. They were 
rescinded or, you know, they weren't released. And so it is 
hard for us, particularly when it relates to E-Rate to see how 
we are doing, what we should be doing, and what are the next 
steps.
    And Lifeline, uncertainty is abound when it comes to that. 
Because we told nine providers who spent millions of dollars to 
take part that we approved, that no need to apply, you know. We 
just rescinded those applications. So what is happening is a 
lot of uncertainty and a program that can provide the most for 
the least is in a state of flux. And it was very unnecessary.
    Ms. Matsui. Thank you. And I just hope the Commission puts 
a lot more energy behind this program.
    Commissioner Clyburn, I share your belief that we need to 
be strengthening localism and viewpoint diversity in our media. 
We have a strong tradition of local broadcasting in Sacramento. 
And it is essential to keeping my constituents engaged and 
informed. I know that you have concerns about some of the FCC's 
recent decisions on media, specifically rolling back the UHF 
discount. How is reinstating the UHF discount opening the door 
for greater consolidation and local broadcast markets?
    Ms. Clyburn. It will allow for a potential licensee to, 
under the cloak of darkness, to account for 50 percent of a 
certain license. It would only show up as 50 percent. And that 
means that you would make the assumption that they are under 
your cap when they actually are not. It is technologically 
obsolete, and anything that is technologically obsolete will 
negatively impact the entire ecosystem.
    Ms. Matsui. So you believe that this is really under the 
cloak of darkness?
    Ms. Clyburn. Absolutely.
    Ms. Matsui. OK. OK. At this point, I would like to give a 
few minutes here, or seconds, to Congressman Cardenas.
    Mr. Cardenas. Thank you, Congresswoman Matsui. And thank 
you, Madam Chair, for holding this hearing.
    I just wanted to submit my questions for the record. And I 
appreciate this opportunity to hear from the Commission. And I 
just want to register some questions that I have, and concerns, 
to the merger between Sinclair and Tribune, and the massive 
reach that they would have and the must-run content that they 
seem to be pushing on the local media.
    So thank you very much, Madam Chair. I yield back.
    Ms. Matsui. I yield back.
    Mrs. Blackburn. Gentlelady yields back.
    Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair. And welcome Commissioner 
Clyburn, Commissioner O'Rielly, and Chairman Pai.
    Chairman Pai, my questions concern Spectrum for commercial 
uses. The Spectrum Pipeline Act of 2015 called for the 
identification and auction of 30 megahertz of Spectrum by 2024. 
Is that 30 megahertz adequate to meet industry's future needs? 
And, if it is not, what can Congress, NTIA, and the FCC, do to 
identify additional bands that could be made available for 
commercial use?
    Mr. Pai. Thank you for the question, Congressman. I think 
the only constant in the wireless world is change. And that if 
we anticipate the 300 megahertz that might have been sufficient 
in 2015, then innovators will find applications that require us 
to think even more broadly. And so we certainly want to pursue 
as many of those 300 megahertz as possible. But, as I stated in 
my response to Congressman Guthrie, we are thinking as broadly 
as possible. We want to tee up as many bands as possible.
    And to the extent that congressional authority might be 
helpful in identifying further bands or giving the FCC the 
authority to clear more bands, we would be happy to exercise 
that authority.
    Mr. Olson. In your opinion, what are the repercussions of 
not meeting Spectrum needs over the next decade? What is going 
to happen if we blow it?
    Mr. Pai. I think the opportunity cost could be extremely 
significant. As Congressman Loebsack pointed out, if you are a 
healthcare provider in a rural area, and that wireless 
connection might be necessary for you to be able to assess and 
stabilize a patient, that requires Spectrum. For agriculture, 
for education, all these other things depend on wireless 
Spectrum.
    And as the world goes wireless, the demands on the network 
go up, and we have to have enough Spectrum to meet those needs 
both unlicensed and licensed.
    Mr. Olson. Commissioner Clyburn, Commissioner O'Rielly, 
something to add to those questions about the Spectrum?
    Ms. Clyburn. Well, one of the things is we are working with 
our Federal partners. You know, with, you know, NTIH, to ensure 
that we are on the right track. We are being flexible. We are 
talking about an all-of-the-above approach, you know, 
unlicensed, licensed, and shared Spectrum. So I really think 
the momentum--I know the momentum is there. We just need to 
shore up, I think, the public-public partnership side of the 
equation to make sure that we keep pace.
    Mr. O'Rielly. I would say that I have been pushing hard on 
millimeter wave band and midband to make more Spectrum 
available for those purposes.
    One idea that I put forward was agency Spectrum fees, is 
putting opportunity costs for Federal agencies that hold 
Spectrum to try and make a mechanism that they would realize it 
in their budgets in terms of holding Spectrum. Because right 
now there is no cost for the hold licenses, and that keeps that 
bottled up in the Federal agencies.
    So that would be one mechanism I would recommend to the 
committee for consideration.
    Mr. Olson. Thank you.
    Chairman Pai, the FCC Authorization draft legislation we 
are reviewing today would establish a, quote, ``Office of 
Economics and Data,'' end quote, within the FCC. Do you support 
this office in the statute? How can this office help the 
Commission do a better job with its rulemakings? Is this 
necessary?
    Mr. Pai. I strongly support the creation of this office, 
having proposed it in April. It has struck me over the years 
that for the legal function there is a dedicated office, the 
Office of General Counsel.
    For the engineering function, there is an Office of 
Engineering Technology. But when it comes to economics, which 
arguably should guide a lot of our thinking, in terms of cost 
benefit analysis and the like, the economists are sprinkled 
throughout the agency. And that impairs our decisionmaking. It 
gives the economists at the agency less of a feeling that they 
are incorporated into the culture of that decision making. It 
also makes it difficult for us to recruit the best and 
brightest, and when we are competing with the FTC and SEC.
    So we are hopeful that with the Congress' support, we are 
able to create this office in a way that inspires great big-
picture thinking from the terrific economists that we have on 
staff.
    Mr. Olson. Sounds like we should keep it in the bill.
    Mr. Pai. I would be supportive of that.
    Mr. Olson. Final question for you, Commissioner O'Rielly. 
We can all agree on the benefits of the next generation of 
wireless, 5G. Unfortunately, we also hear about delay of sites 
for new wireless facilities which in some cases can take years. 
Mr. Pai mentioned sites on Federal lands. What is the FCC 
doing, and what more can it do in this regard? As a formal Navy 
aviator, how can Congress help the FCC feel the need for speed?
    Mr. O'Rielly. So I appreciate your comments. The Chairman 
outlined a number of things that we are already doing at the 
Commission, including the BDAC, and including three proceedings 
that we have before us. So, hopefully, we will conclude those 
in the near term.
    But, in addition, anything that Congress can do to clarify 
the current statute in terms of our authority is very welcome. 
I think we have broad authority in this space, but anything 
that Congress is willing to clarify would be very helpful.
    Mr. Olson. Thank you. My time, I yield back.
    Mrs. Blackburn. Right on time he yields back.
    Mr. Ruiz, 5 minutes.
    Mr. Ruiz. Thank you, Chairwoman. I want to thank the 
Chairman and Commissioners for being here. The FCC is 
responsible for a vast array of issues, and I welcome the 
opportunity to discuss a couple of them today.
    Diving right in. I want to talk about broadband deployment. 
One of the most important tools the FCC uses to encourage 
broadband deployment is through the Connect America Fund which 
helps make deploying and maintaining broadband internet 
possible in remote, and rural, and underserved areas across the 
Nation.
    These are areas like Mecca, Thermal, Coachella, in my 
district, where I grew up, where it is a rural area, farm 
worker area, where we also have some tribes, or a tribe, that 
also exists in that area. And we know that there are some 
classrooms in the Coachella Valley Unified School District that 
doesn't have access to good internet where teachers have to 
print out a YouTube video and show them as slides so that the 
kids can get information.
    But, also, the CV Unified School District and the community 
work together to provide every student, K through 12, an iPad 
or a tablet to boost achievement and narrow that digital 
divide, where oftentimes when I grew up there we had 
dilapidated books, and we didn't have the most recent 
copyrighted book as well.
    Unfortunately, however, broadband deployment across the 
region remains spotty, at best, limiting the ability for 
students to take full advantage of this technology. In December 
of 2015 I wrote to the FCC in favor of Frontier Communications 
proposal to acquire Verizon's Wireless Networks and supporting 
their commitment in working together with my office to utilize 
the Connect America Fund to deploy high speed internet in those 
underserved areas in my district. And I urge the FCC to support 
Frontier's efforts to deploy broadband in my communities and to 
hold Frontier accountable to their commitments to closing the 
digital divide through their acceptance of Connect America 
Funding.
    So my first question to Chairman Pai, are you committed to 
ensuring all Connect America funds recipients are fulfilling 
their responsibilities under the program?
    Mr. Pai. Absolutely, Congressman. Yes.
    Mr. Ruiz. And how are you going to monitor that progress?
    Mr. Pai. Two different ways. Upfront, we have required the 
recipients of that funding to build out to 40 percent of their 
territory by the end of this year, 20 percent by the end of 
2018, 20 percent by 2019, and the final 20 percent by the end 
of 2020.
    We require reporting obligations throughout. And on the 
back end there is accountability. If they do not build what 
they said they would build out, then we will require the 
accelerating----
    Mr. Ruiz. Thank you.
    Mr. Pai [continuing]. Back.
    Mr. Ruiz. Thank you. This is obviously a critical program 
not only for the people and families I represent but millions 
of Americas who still lack access to broadband.
    Now switching gears. My next question is about addressing 
the challenge of--and in some cases the other lack of diversity 
in media programming, ownership, and viewpoints. For me, this 
isn't about some statistic. It is about the children in our 
communities who deserve to see their stories, their 
communities, their experiences, their role models, their 
culture, portrayed on the screen in a positive light.
    It is about giving our young people more inspiration and 
more role models to look up to on the screen and behind the 
screens. And when they believe that they can dream big and 
fight to make those dreams come true, our Nation as a whole 
reaps the benefits. I firmly believe that we need to see real 
progress, real change, and we are going to need to improve the 
diversity of those decision makers at the top.
    As we have seen, several mergers over the years in the 
evolution of how people consume media content, we must ensure 
that diversity in programming and content is not diminishing. 
As the agency who has overseen numerous mergers over the years, 
the FCC has a responsibility to take public interest into 
account and in determining whether to approve a particular 
proposal.
    Chairman Pai, very briefly, if you don't mind--because I do 
have another question--does the FCC consider diversity when 
reviewing proposed mergers under the public interest lens?
    Mr. Pai. That is one of the factors that goes into our 
analysis.
    Mr. Ruiz. Thank you.
    And Commissioner Clyburn, you have been a champion for this 
issue in the past. How do you think the FCC and Congress can 
work to improve diversity on and off the camera?
    Ms. Clyburn. I think one reason--one way is through 
ownership. Just stamping every merger that comes our way is not 
going to help in terms of diversifying the ecosystem, a tax 
certificate program. That works extremely well.
    An incubator program, that I think would work extremely 
well where we could possibly relax some of our ownership 
obligations.
    Those are two proven ways, I believe, that we could further 
infuse and diversify the marketplace.
    Mr. Ruiz. Good. I look forward to working with you both on 
this particular issue in the future. Thank you. I yield back.
    Mrs. Blackburn. Mr. Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    Commissioner O'Rielly, a long time ago, in a galaxy far, 
far away, during the proceedings to establish rules for the 
incentive auction there was fierce debate about the bidding 
restrictions set aside in the Spectrum screens. Now that the 
incentive auction is over, can you say with confidence whether 
the restrictions to set aside the screen applied increased 
better participation?
    Mr. O'Rielly. I cannot, with all honesty, say that they 
increased participation. I would say just the opposite, they 
decreased participation.
    Mr. Long. You what?
    Mr. O'Rielly. I would say they decreased participation. The 
restrictions decreased participation. They set aside a Spectrum 
for particular bands, for particular licenses, for particular 
winners.
    I think that those rules were harmful to the free market 
and the free auction, and I think that the auction didn't 
generate as much as it possibly could have.
    Mr. Long. I think I can maybe delete the second part of my 
question. I was going to say were they necessary and 
beneficial. But I think you have answered that.
    This is for everyone. I will start with Chairman Pai and go 
down the line. Netflix is the largest paid TV service in 
America in terms of subscribers and has a content budget of $6 
billion including to produce its own exclusive content.
    Amazon Prime, which offers a premium and exclusive video 
programming will soon see its subscriber numbers pass that of 
all the so-called traditional pay TV services, such as cable 
and satellite combined.
    Alphabet's YouTube now offers a paid TV service with 
programming no different than traditional cable and satellite 
to 35 percent of American households.
    My question is this: Do our communication laws and FCC 
regulations recognize and account for these new and competitive 
services?
    Mr. Pai. Good question, Congressman. I don't think they do, 
and part of the reason is that the law has been frozen in place 
for a while. And that is why I think it would be helpful to 
have additional authority, for example, with respect to 
forbearance.
    It would allow the agency to modernize our rules to 
recognize some of those revolutionary changes you identified.
    Mr. Long. I will repeat the last part of the question for 
Commissioner Clyburn. Do our communications laws and FCC 
regulations recognize and account for these new and competitive 
services?
    Ms. Clyburn. I say yes and no. You know, we recognize part 
of the reason why you can mention all of those, you know, 
companies, is the fact that we have an open internet, an open 
and a vibrant ecosystem.
    So I don't think we should discount that. That is very 
important. You would not have been able to say those alphabets, 
literally, you know, several years ago.
    So I think we need to concentrate on that as much, you 
know, recognizing that maybe we need to retool and continue to 
evaluate rules that are on the books.
    Mr. Long. OK. And, Commissioner O'Rielly, again, do you--
excuse me--do our communications laws and FCC regulations 
recognize and account for these new and competitive services?
    Mr. O'Rielly. I would agree with my colleagues. It is a yes 
and no in terms of--sorry, sir.
    Mr. Long. That is all right. Pay no attention to the man 
behind the curtain.
    Mr. O'Rielly. In terms of Title VI, I don't think it 
reflects the current marketplace. That is what generally 
governs our video services. So I think the law is out of sorts 
with that. I think in our media ownership we are required to 
look at those things and required to look at the broad 
ecosphere and what is happening in the marketplace. And so that 
does, I believe.
    And we didn't do that in the last go-round in our media 
ownership, the quadrennial review. So the law does in some 
places and other places it doesn't. It should be modernized.
    Mr. Long. OK. Thank you.
    And, with that, Chairman, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, 5 minutes.
    Mr. McNerney. I thank the Chair.
    Chairman Pai, within 2 weeks of becoming Chairman, you 
rescinded the FCC White Paper on cybersecurity risk reduction, 
as well as the Notice of Inquiry on the 5G wireless network and 
device security. You then moved to stay the data security 
provisions of the Broadband Privacy Rules. Meanwhile, we have 
seen more unsecured devices come to market, and an increase in 
the attack surface and the largest online ransomware attack in 
history.
    I am puzzled that you aren't taking the agency's 
responsibility in the area of cybersecurity more aggressively, 
given that your own agency was attacked--was a victim of attack 
of--denial of service attack.
    Please answer with a yes or no. Will you commit to working 
with the committee to using your authorities to protect 
consumers against the growing cybersecurity threats?
    Mr. Pai. Yes.
    Mr. McNerney. Chairman Pai, on May 7, after airing of John 
Oliver's program that outlined the FCC's efforts to roll back 
net neutrality, the Commission's electronic comment filing 
system went down. The FCC's chief information officer alleged 
that the agency's internal analysis found the Web site was hit 
by multiple DDoS attacks. I find it troubling that the FCC 
could not produce any documentation on these attacks when asked 
to do so.
    Please answer with a simple yes or no. Will you commit to 
turning over to this committee any reports, requests, 
memoranda, and server logs related to this incident so that we 
can get to the bottom of what happened here?
    Mr. Pai. Congressman, I hope to consult with the IT staff 
and the attorneys to see if there are any applicable, 
technical, or legal prohibitions or restrictions on doing so. 
But to the extent I can share information with you and the 
committee, I would be happy to do so.
    Mr. McNerney. You will commit to that?
    Mr. Pai. Yes, sir.
    Mr. McNerney. What is the agency's protocol going forward 
for documenting DDoS attacks?
    Mr. Pai. We consistently work with the career IT staff to 
monitor the situation, and they work, in turn, with the cloud 
providers to ensure that they are able to scale up as necessary 
to address some of the challenges that our system might have. 
And I am happy to say that they have been able to do so very 
successfully, judging from the voluminous comments we have 
received to date.
    Mr. McNerney. So we will have better visibility, then, in 
future potential attacks?
    Mr. Pai. Sorry. In terms of----
    Mr. McNerney. Of what happened. Of what was the attack 
consisted of.
    Mr. Pai. Yes. As pointed out in the letter to Senators 
Wyden and Schatz, and the attachment from our chief information 
officer, the career chief information officer, we outlined some 
of those facts, and we would be happy to produce that to the 
committee as well.
    Mr. McNerney. Well, after passing the privacy CRA, the 
Republican members of this committee sent you a letter asking 
that the FCC protect consumers' privacy by using its authority 
under sections 201 and section 202 of the Communication Act.
    Please answer with a simple yes or no. Since receiving this 
letter, has the Commission taken any enforcement action or 
issued any guidance for using sections 201 and sections 202 to 
protect consumer privacy and broadband privacy.
    Mr. Pai. Not to my knowledge. We are still studying that 
issue, the letter that was sent over.
    Mr. McNerney. Does the Commission have any plans to take 
enforcement under--action under 201 and 202 to protect 
broadband privacy?
    Mr. Pai. The Enforcement Bureau Guidance that was issued in 
2015 is still in force, and so, we are happy to provide further 
detail if requested.
    Mr. McNerney. Thank you.
    Commissioner Clyburn, what broadband privacy protections 
can consumers rely on today?
    Ms. Clyburn. To my knowledge and my interpretation, though 
I am not a lawyer, none. We have basically gotten out of the 
business of protecting those online. We have made it clear that 
if you have--in terms of voice, we are there for you when it 
comes to broadband. That is up in the air. And to say that the 
FTC will be your savior, I think is shortsighted in terms of 
looking at what their authority is.
    Mr. McNerney. Well, startups are the key drivers to job 
creation, innovation, and economic growth. I want to make sure 
that my startups in my community can continue to expand.
    How will the current proposals to roll back net neutrality 
protections affect the ability of startups to thrive and 
compete?
    Ms. Clyburn. I think in terms of the FCC's ability to do 
its job in terms of ensuring that there is a way for us to 
ensure that there is broadband and investment oppose 
attachments and other types of conduits. It is questionable 
right now whether or not we have the authority or the ability 
to do anything to enable all of that.
    Moving in the direction which is proposed is going to 
cause--is going to short-circuit our ability to the things that 
America expects, and that is to connect them in an expedited, 
legally sustainable way.
    Mr. McNerney. Sure.
    If I understand, you feel that Title II rules inhibit 
investments. How can you test, in an unbiased way, the veracity 
and universality of your opinion since the rulemaking is 
lacking comments on the benefits of the existing rules?
    Mr. Pai. Congressman, to the contrary. We welcome those 
comments, and we want to test the veracity of the statements 
that are made in the 10Ks, the studies that are entered into 
the record. And that is why--precisely why, as I suggested to 
Congressman Doyle, that we aren't proceeding by a declaratory 
ruling, simply fiating a particular result. We want to hear all 
the conflicting facts, sort through those facts, and then make 
the judgment based on those facts and the applicable law.
    Mr. McNerney. Thank you.
    I yield back.
    Mrs. Blackburn. The gentleman yields back. And, Mr. 
Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it so 
much, and I thank the Commissioners for their testimony today.
    Chairman Pai, in past hearings, I questioned your 
predecessor on his proposal to close various FCC field offices, 
and the impact it could have on the radio frequency 
interference complaint response times. At the time, you were 
also concerned that these closures could erode the FCC's 
enforcement abilities. In the closing days of the last 
administration, the FCC closed 11 field offices, including one 
in Tampa. I represent part of the Tampa Bay area. I think you 
know that.
    In light of these closures, what actions has the FCC taken 
to ensure that interference complaints continue to be timely 
addressed?
    Mr. Pai. Thank you for the question, Congressman. And it is 
no secret that I had substantial disagreements with the 
original reorganization plan that was proposed, because it 
would have impacted the field, including places like Tampa.
    Going forward, we have tried, to the best of our ability, 
to use those resources in the field offices to aggressively 
attack issues, like pirate radio, that are a problem all across 
the eastern seaboard. And working with our enforcement Bureau 
staff, during my tenure, we have issued two notices of apparent 
liability, four forfeiture orders, 39 notices of unlicensed 
operations. That is just on the enforcement side. In terms of 
our rules, going forward, we want to make sure that we take 
every step we can to put pirates on notice that both the staff 
at the FCC headquarters and the field office enforcement staff 
are cops on the beat to guard against that problem.
    Mr. Bilirakis. Thank you very much.
    Next question. The Commission has done a great job in the 
last few months bringing cases against scammers who violate the 
TCPA by making millions of unwanted robocalls to innocent 
consumers. I think we all agree that robocalls are a 
substantial consumer protection problem. As a matter of fact, 
you know, I hear about it all the time from my constituents and 
even family members.
    So, Chairman Pai, could you tell us more about the FCC's 
robocall enforcement efforts? And what makes it so difficult to 
identify these bad actors?
    Mr. Pai. Terrific question. This is the number one consumer 
protection issue, judging from the complaints that we get from 
consumers across the country. We took that to heart. And so out 
of the box, in the first 6 months, we have already taken the--
proposed the largest fine ever proposed by the FCC to go after 
a robocaller in Florida who imposed 100 million robocalls in 
just 3 months on America consumers. That is $120 million 
proposed fine.
    Two weeks ago, rather, we proposed an additional fine to 
tackle another scammer who was essentially enabling others to 
make similar robocalls. We also set up, on the rule's side, a 
reassignment--we are proposing to set up a reassign numbers 
database so that those legitimate callers who want to stay in 
touch with their customers are able to do so free from 
liability.
    We have also empowered carriers, rather, to take steps to 
block spoofed calls. These are calls that appear to be coming 
from your area code or even the first three numbers of your 
prefix, but they could be coming from another country. It is 
somebody masking their identity in order to get you to answer 
that phone.
    We are using every tool in the toolbox that we can, but is 
very difficult. There are a lot of technical challenges. And 
that is why, going forward, we have encouraged what is called a 
call authentication anchor. This would enable you to know that, 
if you see a number on your phone, you can be assured that it 
is from the person who is assigned that telephone number. For a 
variety of reasons that we don't have time to get into, it is 
very technically complex to do that, but we have the best and 
brightest folks at the agency and in the industry working 
together to try to figure out this problem.
    Mr. Bilirakis. Very good. Thank you. Thanks for taking that 
action. Again, it is so important to our constituents.
    Ensuring that our elderly and disabled populations retain 
full access to technology is very important to me. And, again, 
we don't want our elderly or any constituents being bothered 
with these unwanted robocalls, as you know.
    But on another issue, just this month, the FCC adopted 
rules to provide more video-described programming to blind and 
visually impaired Americans.
    Chairman Pai, can you describe what this will do for 
visually impaired population, and explain the timeline for 
implementation of the new standard.
    Mr. Pai. Thank you for the question, Congressman. I am very 
proud of our work in this area. So many of the things that we 
talk about when we are with our families involve movies or TV 
shows that we have seen. But imagine if the core scenes in a 
movie or a TV show required you to understand the nonverbal 
cues. Those are things that blind and--people simply can't take 
advantage of unless they have an audio description of what is 
going on. And so that is why, working together, we advanced 
more video description capability. That is somebody narrating, 
essentially, the critical elements of a movie or a film. This 
is something that Congress gave us the ability to do, and we 
have exercised that authority in order to give those with 
disabilities the maximum chance to participate.
    We have done that across a number of different areas, by 
the way, not just on the video side, but with respect to those 
who are deaf or hard of hearing. We have taken a number of 
steps to ensure that they have the ability to enjoy 
communication services as well. And so using the tools that 
Congress has very generously given us, we want all of these 
communities to be digitally empowered, especially those with 
disabilities.
    Mr. Bilirakis. Thank you very much. I want to thank the 
Commission for making it a priority.
    Mr. Pai. Thank you.
    Mr. Bilirakis. So very important that our constituents have 
access.
    Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mrs. Dingell for 5 minutes.
    Mrs. Dingell. Thank you, Chairman Blackburn, and thank you, 
again, to all the witnesses. I know you probably like being 
here as much as you like going to the dentist.
    I want to start with the issue of cybersecurity and build 
on my colleague, Mr. McNerney's questions. And I know it is 
very important to all the Members on both sides of the aisle. 
It is really a nonpartisan issue, and it is something we have 
got to get right.
    The distributed denial-of-service attack that the FCC 
suffered on May 7 is concerning to all of us, especially 
because the Commission has not been very forthright concerning 
what actually happened.
    Chairman Pai, I do appreciate your response to some of 
Senator Wyden's questions on this issue, and to Mr. McNerney's. 
But I want to follow up on that.
    You have presented your plan to mitigate bottlenecks in the 
electronic comment filing system, API. Could you talk about 
this plan in greater detail, and would you be willing to update 
members of this committee when the plan has been implemented?
    Mr. Pai. ``Yes'' is the answer to the second question, 
Congresswoman. With respect to the first, we have worked to 
ascertain what the necessities are in terms of scaling up our 
ECFS system to accommodate a large amount of traffic. And that 
is why I think we now see 12.3 million comments in the system, 
is that our career IT staff working with our commercial cloud 
providers have the ability now to make sure that, if we 
anticipate a great surge in interest in a particular 
proceeding, we are able to scale accordingly. And so that 
process has worked pretty well, as far as I know, over the last 
several weeks, and hopefully, going forward it will as well. 
But we would be happy to keep you briefed on----
    Mrs. Dingell. And let us know if there are problems again 
as they occur?
    Mr. Pai. Absolutely.
    Mrs. Dingell. Chairman Pai, in October of last year, the 
DNS provider Dyn fell victim to a massive distributed denial-
of-service attack. Without diving too deep into the woods, can 
you give us a quick overview of some steps you are taking to 
mitigate the risk of this happening again? The threat is only 
going to grow more and more if more and more devices are 
connected to the internet.
    Mr. Pai. I couldn't agree more, Congresswoman. 
Cybersecurity is a critical issue. And it seems like we hear 
about a new story like that every month or--if not every week. 
The problem as we see it is the FCC's authority here is 
relatively circumscribed. If Congress would give us additional 
authority, we would be more than happy to administer it. But as 
we read the Act, we don't have the ability to directly issue, 
for example, cybersecurity regulations of the type that would 
address issues like that.
    We are in a consultative role with the Department of 
Homeland Security and other agencies. And I personally have 
been in briefings at the where FCC's secure facility where I 
have been briefed about some of the cyber threats that we see. 
And I obviously can't discuss those in open setting. But I can 
tell you that we are focused on this issue, and we would 
welcome any additional authority.
    Mrs. Dingell. So I think it is great to hear that you are, 
because I have been worried that it has all been shunted off to 
Homeland. And maybe in a session, we can work with what you 
think you need to have more authorization, because I think the 
FCC has a critical role as more goes on. So thank you.
    Switching gears to another top priority of mine, the 
Lifeline program. It is critical to so many hardworking 
Americans across the country. Americans are living paycheck to 
paycheck and struggling to get by in the new economy. All of us 
have constituents like this, and we see them every weekend when 
we go home. We can't afford to leave Americans behind. So I am 
going to ask all of the Commissioners this. To each of you: 
Will you commit that you won't take Lifeline away from these 
hardworking Americans by artificially limiting the Lifeline 
program?
    Mr. Pai. Congresswoman, I am not sure what you mean by 
artificially limiting the program. But I have said consistently 
that Lifeline is a critical part of the equation to addressing 
the digital divide. And so long as I am Chairman, broadband 
will remain a part of the Lifeline program.
    Mrs. Dingell. Chairman Clyburn.
    Ms. Clyburn. I am absolutely concerned about the program. I 
am concerned about the posture. I am concerned about the 
rhetoric. And if we do not fix it as opposed to criticizing it, 
then this program will be in jeopardy.
    Mr. O'Rielly. I have no interest in dismantling Lifeline. I 
am not sure exactly what you mean by your question. But, you 
know, I am happy to work with my colleagues. There are a number 
of improvements needed to be made in this area, including 
having a budget for the program.
    Mrs. Dingell. I will expand more on that in questions 
after. I am going to do a really fast one.
    Commissioner Clyburn, do you think rolling back net 
neutrality would undermine free speech online? Why or why not?
    Ms. Clyburn. Absolutely. I think if any outside force is 
able to influence a limit where you can travel or where you can 
access online, that is very limiting not only, you know, to 
free speech but other enabling opportunities that you may have.
    Mrs. Dingell. One more. If someone with a vibrant small 
business community in my district, I have heard many of them 
that rolling back net neutrality can undermine their growth in 
jobs, small business.
    Commissioner Clyburn, why would small businesses be so 
uniquely affected by the rollback of net neutrality?
    Ms. Clyburn. Because they don't have the power of being 
able to buy more expanded, robust service offerings or faster 
speeds. We heard from a lady in the--Congressman Johnson's 
district that said she lost 300 or $400 a month because fraud 
rolling and her inability to enhance--to promote her artwork. 
These are very real problems that are happening to very real 
people. And if they don't have a level playing field, it will 
continue.
    Mrs. Dingell. Thank you, Madam Chairwoman.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Kinzinger, 5 minutes.
    Mr. Kinzinger. Thank you. Thank you, Madam Chair, for 
holding the hearing. And to the Commissioners, thank you for 
being here today. I am pleased to see the FCC reauthorization 
discussion draft includes provisions from legislation I 
introduced last Congress that would require the FCC to publish 
the draft of any item that is circulated on vote at the 
Commission. And I am also pleased to see the FCC Process Reform 
Act included in the bill that I cosponsored with Chairman 
Walden in the past few Congresses to improve transparency and 
fairness.
    Mr. Chairman, you stated you are going to make transparency 
a priority, and I am very encouraged, actually, by the efforts 
you have already made. While it has only been a few months, 
what benefits have you seen from some of the reforms that you 
have implemented?
    Mr. Pai. Thank you for the question, Congressman. It has 
been tremendous. The first and foremost reform is the pretty 
simple one: Letting the American people know what we are going 
to do at our public meetings at least three weeks before we do 
it. And that is something that we had been told for legal 
reasons we couldn't do, or for policy reasons we shouldn't do. 
But in my second week, I instituted that reform, adopted 
Commissioner Clyburn's suggestion to accompany those items, the 
one-page fact sheet that explains in plain English what we are 
doing. And the results speak for themselves. People, including 
Members of Congress, are able to see the specific details of 
what the agency is proposing to do.
    I would say for myself, that it has made the meetings we 
have about--internally, about those proposed items much more 
productive. Instead of this game of telephone where one party 
says, ``Well, we hear that X, Y, and Z is in the item. Can you 
confirm?'' And the Commissioner, or the Commissioner's staff, 
``Well, we can't disclose nonpublic information, but you might 
be on the right track.'' Those meetings simply don't happen 
anymore, because everyone can see what is in it. Or if there is 
a meeting, we focus on the meat of an issue. You know, 
``Chairman, you are wrong for this reason. Chairman, you are 
right for that reason.'' So it has been much more productive.
    Other process reforms we have instituted have been 
similarly helpful, and we certainly look forward to more of 
those going across the finish line in the time to come.
    Mr. Kinzinger. Good.
    And we have draft legislation that seeks to advance that 
even farther.
    I will start by asking you, and then turn to your 
colleagues briefly: What do you see in the legislation that 
will be helpful and what tools might we be considering as this 
legislation advances?
    Mr. Pai. A lot of good ideas in the process reform section 
of the bill. Obviously, the creation of the Office of Economics 
and Data is something I am very supportive of. I think it would 
be helpful to create a culture of big picture economic thinking 
at the agency, and having Congress' support would aid that 
mission. Making sure that we institute more--deadlines for 
Commission action is something that would certainly come into 
the committee's attention. That is one of the things that we 
talked about before is that the agency can accept all these 
petitions and applications, but there is no accountability on 
the back end, because we have no deadline for acting. So having 
those deadlines, having sunset clauses and the like would help 
our work.
    As I mentioned earlier, and I am not sure if you were in 
the room, but the one caveat I would add is that for 
enforcement actions, it is often important for us not to 
disclose the content of those actions until after the 
Commission has voted. That is one area where transparency is, 
as important as it is, is counterweighed, I think, by 
considerations of due process and notice and the like.
    Mr. Kinzinger. Understood. Commissioner Clyburn.
    Ms. Clyburn. I will be a one-hit wonder on here and talk 
about the Sunshine rules. I was a chair of the universal 
service joint boards, and that was definitely a barrier to 
communications. So, you know, that--pushing that ahead is a 
positive, and to the now current Chair.
    Mr. O'Rielly. Well, thank you.
    I support the bill. I think there is many good improvements 
to our process. I think the Sunshine, as I mentioned, to the 
chairman of the full committee, that the Sunshine changes 
probably could be broader, in my opinion. I think they are a 
little limited, but they are improvements, so I will take them. 
But I am not sure they will be used all that often.
    But I have put forward 15 ideas in my testimony that I 
think could be added to the bill to make it a little stronger. 
There are things I was pushing when I was a minority 
Commissioner, and have advocated since. And, you know, it 
doesn't matter from the minority or majority. I am worried now 
about this Commission. I think Chairman Pai has been a great 
leader in improving the accountability and transparency. But it 
is two, three, four failed Chairmen from now I am worried 
about.
    Mr. Kinzinger. There are benefits to codifying.
    And, Chairman Pai, last question. You updated us on the 
post-incentive auction transition process. And you mentioned 
that the $1.75 billion we provided is insufficient to cover the 
total cost of repack, likely.
    You didn't mention whether the 39-month deadline will be 
enough time to complete the process. Is it too early to tell 
whether there will be enough time to move it all within 39 
months?
    Mr. Pai. It is a little too early to tell. We have 
allocated the broadcasters who need to be repacked into 
different phases. And thus far, we haven't yet commenced full 
analysis of whether those phases will be sufficient. But I can 
commit to this committee that we will keep you apprised 
promptly of any developments on that front if we get the sense 
the 39 months will not be able to be met.
    Mr. Kinzinger. Thank you. And, Madam Chair, I will give you 
29 seconds back.
    Mrs. Blackburn. Sounds great.
    Ms. Clarke, 5 minutes.
    Ms. Clarke. Thank you, Madam Chair. Thank our ranking 
member. I also thank our Commissioners. And it is great to have 
you here before us to answer questions today.
    My first question is actually to you, Mr. Chairman. It is 
good to see you.
    Mr. Pai. You too.
    Ms. Clarke. Since the close of the FCC's broadcast 
incentive auction in April, you have begun granting license 
applications. I believe 25 have been granted, including two 
applications to incumbent nationwide wireless carriers, and the 
country's largest cable and direct broadcast satellite 
providers.
    Of the 24 remaining applications that have not been placed 
on public notice, 13 seek bidding credits as small businesses, 
and 10 seek bidding credits as rural service providers, and you 
have announced in July that you are prepared to pay the winning 
bidders in the reverse auction.
    So now that these payments are ready to go out, and now 
that the FCC has largely processed applications for winning 
bidders it has previously put on notice, I believe that the FCC 
should now move to be ready to process remaining license 
applications, many of which are for small businesses. So can 
you tell me what the timeline is for putting the remaining 
license applications on public notice, and how are you 
prioritizing these applications to ensure that there is timely 
deployment of these valuable spectrum to consumers?
    Mr. Pai. I appreciate your concern, Congresswoman, because, 
obviously, that is a great limiting step for those winning 
bidders to be able to deploy that spectrum to benefit 
consumers.
    We are moving as quickly as we can. Obviously, we want to 
process those applications quickly. With respect to designated 
entities, there are particular procedures that the FCC is 
required to follow in addition to the standard procedures we 
have to follow for winning bidders to ensure that those 
designated entities are, in fact, entitled to bidding credits 
under our rules and the applicable law. We will move as quickly 
as we can working through those procedures to ensure that they 
get the spectrum that they have bid for. And we would be happy 
to keep you apprised as things go forward.
    Ms. Clarke. I am just concerned, because the little guys 
always get short shrift, and the rules always get short shrift.
    Mr. Pai. Right.
    Ms. Clarke. And it would be great to flip the script this 
time and make them a priority, because the big guys--you know, 
they have got all the wherewithal to do what needs to be done; 
the little guys that we are trying to elevate.
    Mr. Pai. Exactly. And you have got my commitment on that 
front, Congresswoman.
    Ms. Clarke. Awesome. Awesome. Awesome.
    This question is for Commissioner O'Rielly.
    The FCC is currently considering whether to approve a new 
broadband standard, the ATC 3.0. And I am interested in the new 
services that this standard could bring to consumers, including 
access to more in-depth news on topics, interactive educational 
programs, and a robust emergency alert system. What is the time 
frame for the FCC action on this new standard and, also, its 
deployment by broadcasters?
    Mr. O'Rielly. So I think the Chairman may be better to 
answer timelines on that point. I would hope to be expeditious 
on this. I would like to do it this year, if possible. But he 
may be better able----
    Ms. Clarke. This year?
    Mr. O'Rielly. The Chairman can answer your timeline 
probably----
    Ms. Clarke. OK.
    Mr. Pai. Well done, Commissioner O'Rielly.
    So we do hope to be able to conclude the--to approve the 
new standard, if possible, by the end of the year. But 
obviously, we want to follow the facts where they take us. And 
so we are studying the record actively. And hereto, we hope to 
work collaboratively to figure out whether we can--we can, in 
fact, approve that standard by the end of----
    Ms. Clarke. Well, we are moving down that track. And having 
said that, I was just wondering whether you would all make a 
commitment to make sure that no consumer will lose service, no 
consumer will have to spend any money to keep viewing broadcast 
channels.
    Mr. Pai. Yes, Congresswoman. As I am recall the NPRM, it 
has been a few months now, but I specifically remember that 
most consumers have ATSC 1.0 enabled television sets and 
devices in their homes. And so we obviously don't want to make 
a flash cut to ATSC 3.0 and leave those viewers in the lurch. 
So that is part of the reason the way we structured it was that 
you could experiment with ATSC 3.0 so long as that 1.0 signal 
was also still out there and able to be viewed.
    Ms. Clarke. OK. Wonderful.
    And then recently, two licensees, FiberTower and Straight 
Path, sought FCC authority to sell spectrum after doing little 
or nothing with those licenses for many years.
    If auction consistent with FCC rules, this spectrum would 
fetch billions of dollars for the U.S. Treasury. Why should the 
FCC reward FiberTower and Straight Path with private riches for 
not deploying service to the public? And why should FiberTower 
and Straight Path collect billions of dollars in payments 
instead of having to give that money to the U.S. Treasury for 
the benefit of all Americans? Can you guys give me a sense of, 
you know, what is the deal here?
    Mr. Pai. Good question, Congresswoman. So there is some 
tricky legal issues that we are trying to sort out, and policy 
issues as well.
    Ms. Clarke. Tricky.
    Mr. Pai. But, obviously, as I have said in response to, I 
believe, Congressman Olson, that this is a public resource, and 
we want to make sure that it is allocated in a way that 
benefits the American public.
    Ms. Clarke. Awesome.
    Anyone else have any thoughts?
    OK. I yield back. Thank you very much, Madam Chair.
    Mrs. Blackburn. The gentlelady yields back.
    Mrs. Walters, 5 minutes.
    Mrs. Walters. Thank you, Chairman Blackburn, and to our 
witnesses for being here today.
    The siting of wireless infrastructure is a key component of 
expanding broadband throughout our Nation while creating jobs. 
In fact, investment in 5G deployment has the potential to 
create over 2,300 jobs in my district. However, Accenture, 
Deloitte, and CTIA recently found that barriers remain to the 
deployment of broadband infrastructure. These reports have 
identified a number of impediments, including a lengthy and 
indefinite permitting process, or an unwillingness to grant 
reasonable access to poles or right-of-ways.
    In my home State of California, several cities require 
wireless providers to show gaps in service just to access the 
right-of-way, while one city is asking for excessive annual 
fees to access the right-of-ways.
    Chairman Pai, do these issues constitute obstacles to the 
broadband deployment?
    Mr. Pai. Thank you for the question, Congresswoman. You 
know, many cases they do. And if you are looking to build a new 
wireless network, especially if you are a smaller competitor, 
you need to be able to deploy that infrastructure in a timely 
and cost-effective way. And if you face barriers like that, it 
can, indeed, be an obstacle to you getting into the 
marketplace.
    Mr. Walden. Well, what can the Commission do to address 
these issues?
    Mr. Pai. A part of it involves the authority that has been 
granted to us by--under the Communications Act, sections 253, 
332, and to the--and possible 6409 of the Spectrum Act. So we 
are looking at different areas like that.
    Also, I have set up, as I mentioned earlier, the broadband 
deployment advisory committee, part of which is setting up 
model State and model local codes for deployment that could 
address these issues. They will also tee up different barriers 
to entry like that to see if there are ways to work 
collaboratively. I have also supported legislation in Congress 
that could help address some of these issues in areas where the 
Commission does not currently have the authority.
    Mrs. Walters. OK. Thank you.
    Along those same lines, wireless infrastructure sitings is 
necessary to expand broadband deployment. And I am hopeful 
Congress and the FCC can work together to find ways to 
streamline siting procedures.
    Commissioner O'Rielly, does the Commission have plans to 
review its procedures to ensure that siting applications do not 
face unnecessary obstacles?
    Mr. O'Rielly. Well, as the Chairman mentioned, we have 
three proceedings that we are looking at in this front: one on 
wireline and two on wireless; one of small cells particularly. 
So we are working on these things aggressively. And as he 
mentioned, he has the new task force. The Commission is looking 
at these issues as well. I just spoke in front of them and 
participated in their activities. So we are aggressively 
looking to solutions. Anything that Congress wants to add or 
clarify in our authority would be welcome, but I think we have 
authority and we should move forward aggressively.
    Mrs. Walters. OK. Thanks.
    And specifically, how does the Commission plan to address 
siting issues, like deemed granted and environmental 
assessments?
    Mr. O'Rielly. So those things are a part of the items that 
I spoke of, and are before us, and we are taking comments and 
making some decisions, so hopefully later this year.
    Mrs. Walters. OK. Are there immediate actions the FCC can 
take to begin laying the groundwork for 5G?
    Mr. O'Rielly. I think there is the two parts, as I have 
mentioned in my testimony. One is making sure there is spectrum 
available. And the second is this piece you and I just spoke 
about. And we are working aggressively on both fronts as hard 
as possible, I think.
    Mrs. Walters. OK. And, Commissioner Clyburn, would you 
share your thoughts?
    Ms. Clyburn. A couple of things that you made me think 
about in asking that question. I am wondering, in a world 
without Title II, how would you know that 253 apply? And so 
that is a concern of mine and should be a concern of yours.
    And another thing, we need to make sure that our local 
communities do what we can to ensure that local communities 
have the tools they need to sift through these applications. If 
you go into Montgomery County right across the border, they 
have had hundreds of applications and maybe just one or two 
people to sift through them. So not everyone is trying to stand 
in the way. And so we need to make sure, as a collective 
infrastructure family, that we make sure that everyone, you 
know, has the oxygen they need to move forward.
    Mrs. Walters. OK. Thank you. And thank you again for being 
here. And I yield back the balance of my time.
    Mrs. Blackburn. Mr. Engel, you are recognized for 5 
minutes.
    Mr. Engel. Thank you, Madam Chairman. And welcome to 
everyone here today.
    You know, just as a consumer, when I am running around, I 
notice my phone rings much more now than ever before in terms 
of all these annoying robocalls and--you know, they even have 
the nerve to be stern with you. ``We called you last week, and 
you didn't respond.'' So the average person would think, gee, I 
did something wrong and maybe go along with it.
    When I was first in Congress a while ago, we passed a bill 
which developed a no-call zone where people weren't allowed to 
call. Why can we not exchange that? Are there technical 
obstacles to developing new standards for call certification? 
Why can't we have a do-not-call list like we once had several 
years ago for regular telephones? Anyone who cares to answer?
    Mr. Pai. I would be happy to start that, Congressman. Part 
of the problem is that we have a lot of unscrupulous actors, 
some of whom are beyond our borders who find it profitable, 
frankly, to prey on American consumers with these robocalls 
despite the fact that they are on the do-not-call list. And I 
can tell you that I have raised this with some of my 
counterparts in foreign countries to emphasize that this is a 
major consumer protection issue for the United States, and we 
need their cooperation in terms of cracking down on some of 
those call centers that are just disobeying our do-not-call 
rules. And we also wanted to use the authorities we have, and 
that is part of the reason why we set up what is called a do-
not-originate database--or functionality. Essentially, if a 
consumer does not want his or her number used for any purposes 
other than his or her own, they can tell the carrier, Do not 
place a call if it does not come from me, essentially. And that 
is one complement to the do-not-call list that we hope bears 
fruit in the time to come.
    Ms. Clyburn. And I agree. Any proposed rules going forward, 
they don't apply to people who are unwilling to abide by them. 
And so that is the big challenge. And that is why we created 
this task force, to make--because we know we can't do it alone 
at the FCC. We don't have the tools. And so we are attempting 
to enable the providers, you know, to have more teeth, so to 
speak, to make sure that they can be a part of fixing this 
problem. It will be ongoing. And I wish I could tell you next 
year we would have a different conversation. We might not, but 
hopefully we will be able to move forward.
    Mr. Engel. Well, thank you. Because just as a consumer, I 
am running from meeting to meeting. All of a sudden, I answer 
something, and it is just so annoying. And it is increasing 
every single day. Well, thank you.
    Commissioner Clyburn, let me ask you this: Privacy and data 
security, according to the Identity Theft Resource Center, last 
year, U.S. companies and Government agencies suffered over 
1,000 data breaches, which is a 40 percent rise from 2015. And 
they exposed everything from Social Security numbers to log-in 
names and passwords.
    Congress gave the FCC a clear role and responsibility in 
overseeing our Nation's commercial communication networks, but 
there is a growing consensus that we are falling behind.
    So our privacy protections seem to be frozen. Provisions 
were gutted requiring ASPs to notify consumers of data 
breaches. And we might never know the full scope of these 
breaches, because many are undiscovered and underreported.
    So let me first start with Commissioner Clyburn.
    Do you think the FCC should issue rules on this issue?
    Ms. Clyburn. Do I think we should issue rules? I'm sorry?
    Mr. Engel. Yes, on the issue of privacy.
    Ms. Clyburn. I think we should. I am not sure we can. I 
don't know what the impact of the Congressional Review Act is. 
I am trying to, you know, figure out what our next steps are. 
Particularly, you know, when it comes to voice, I think it is 
clear. But when it comes to broadband, we are increasingly 
moving to IP. I don't know what direction which we are headed.
    Mr. Engel. What role should the FTC play?
    Ms. Clyburn. I think it is a complementary role. When it 
comes--they don't have any type of authority, as my 
interpretation is, as it stands now, when it comes to common 
carriers. And so if--so as it stands right now, the FTC--I 
don't see what role they could play in terms of broadband 
protection.
    Mr. Engel. If we leave regulation up to the States, what 
happens?
    Ms. Clyburn. I think there are some States that are looking 
at this that were responsive after the CRA. But we will have a 
patchwork of regulation. I don't think that works well for 
businesses who have a nationwide footprint.
    Mr. Engel. What are the consequences of leaving data 
security up to the ISPs?
    Ms. Clyburn. I think uncertainty. I think, again, that 
hodgepodge. I don't think the American public would be very 
comforted to know that, depending on who they call or who their 
provider is and where they go online, that they might have 
different levels of expectations or protections.
    Mr. Engel. Thank you. Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Johnson, you are recognized.
    Mr. Johnson. Thank you, Madam Chair. And Chairman Pai, 
Commissioner Clyburn, and Commissioner O'Rielly, thank you all 
three for being here today to talk about such an important 
issue.
    Chairman Pai, a lot of questions have already been asked, 
but I am going to give you an opportunity here to talk more in 
a broad context.
    What has the FCC done during your time as Commissioner in 
the Commission to facilitate the deployment of broadband 
networks?
    Mr. Pai. Boy, a lot. So we have been pretty busy on this 
front. Number one, in February, we kicked off the process for 
the Connect America Fund, phase two, as well as Mobility Fund, 
phase two. Next week we are going to be voting on some of the 
next steps to make sure those auctions happen in a timely and 
effective way.
    Number two, we have taken a very aggressive stand in terms 
of modernizing our rules to recognize that broadband deployment 
is our top priority. We kicked off, for instance, a wireless 
infrastructure item, voted on unanimously, I would add, that 
would enable the deployment of some of the nuts and bolts of 
these wireless networks in an easier and timely way.
    On the wireline side too, we teed up a number of different 
ideas for promoting the deployment of fiber and the other guts 
of a network that go into the ground and on poles to make it 
easier for broadband providers to deploy.
    Additionally, using the discretion that is granted the 
Chairman, I set up early on a broadband deployment advisory 
committee to help us create model codes for States, model codes 
for localities and other issues--tee up other issues that are 
for the Commission's consideration, for us to think broadly 
about ways to promote broadband deployment.
    I would also add that I am working cooperatively with my 
counterparts at other agencies. Just this morning, as a matter 
of fact, at the most recent meeting of the rural prosperity 
working group convened by the Secretary of Agriculture, I had a 
chance to meet with him, Secretary Chao, Secretary Price, and 
others to figure out ways to synthesize our efforts across all 
these different agencies to make sure that we are delivering 
rural broadband connectivity, because broadband is not simply 
good in and of itself. It delivers high quality healthcare, 
high quality education, precision in agriculture, job creation. 
So many of these verticals that are lacking currently in places 
like in your district, as Commissioner Clyburn has seen.
    Mr. Johnson. Sure.
    Mr. Pai. We have been really active, but there is a lot 
more to do. That is why closing the digital divide is our 
number one priority. And I hope to work with Congress to make 
that divide a thing of the past by the time we are done.
    Mr. Johnson. Well, I appreciate it. And I applaud the work 
that you and the Commission are doing now. And I am happy to be 
leading in this effort.
    Commissioner Clyburn, thank you for your testimony on 
affordable, reliable broadband, specifically as it relates to 
rural areas, especially those like Ohio and my district. I 
share your goal in that regard. My only regret is that I wish I 
had known that you were coming to my district with enough 
advanced notice that we could have participated with you and 
your summits and your meetings there, because----
    Ms. Clyburn. I was told we called your office. I am sorry 
if you do not----
    Mr. Johnson. No. I didn't know anything about it until I 
read about it in the newspaper afterwards.
    Ms. Clyburn. OK.
    Mr. Johnson. But if you want to come back again, I would 
certainly encourage that, because people in my district know 
what a struggle it is in our areas without broadband 
connectivity. Is this an obstacle----
    Ms. Clyburn. Yes.
    Mr. Johnson [continuing]. You can identify for us that 
prevents a tech company from deploying their own fiber network 
so that this becomes less of an issue in rural America and 
places like----
    Ms. Clyburn. As it stands now, making a business case. You 
know, it could be a very beautiful country and beautiful 
people. But, you know, it is not necessarily the most densely 
populated region.
    Mr. Johnson. Right.
    Ms. Clyburn. There are some economic challenges in some of 
the pockets. And so money is not--investment is not going to 
organically flow without a universal service construct. And, 
you know, you know what I know. There are some basic things 
that some of your constituents were talking about in terms of 
landline service. When it rains, it literally pours, and they 
don't have connectivity. We have got a job to do. We are 
talking about 5G. They are talking about legacy service that 
there are issues with. So I look forward to continuing to 
talk----
    Mr. Johnson. Sure.
    Ms. Clyburn [continuing]. Trying to work on that cell 
coverage on 69 and 70, you know, the highways. But looking 
forward to return, because we have got some very fundamental 
problems that we need to address.
    Mr. Johnson. I can actually personally relate to some of 
what you just said, because I--living right there in Marietta, 
I mean, I live in town, and we have got broadband connectivity. 
But every time it storms, it goes down.
    Ms. Clyburn. Yes, sir.
    Mr. Johnson. The internet goes out. And it is a problem. I 
can only imagine the frustration that the unserved areas of my 
district face. So I look forward to working with you.
    Ms. Clyburn. Absolutely.
    Mr. Johnson. Thank you. Thank you all three very much.
    Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Doyle.
    Mr. Doyle. Thank you, Madam Chair. I would like to request 
unanimous consent to introduce into the record a document with 
quotes from a number of ISP executives claiming that the Open 
Internet Order will not affect broadband investment, as well as 
a report by the public interest group Free Press on broadband 
investment and online video markets that shows investment is 
thriving under the current rules.
    Mrs. Blackburn. Without objection, so ordered.\1\
---------------------------------------------------------------------------
    \1\ The document appears at the conclusion of the hearing. The 
report has been retained in committee files and also is available at  
http://docs.house.gov/meetings/IF/IF16/20170725/106312/HHRG-115-IF16-
20170725-SD002-U2.pdf.
---------------------------------------------------------------------------
    Mrs. Blackburn. And Mike and I have been sitting up here 
discussing privacy and data security and solving all of those 
problems. Aren't you all thrilled? And I am glad--we just are 
so appreciative of you all taking your time.
    There are no other Members in the queue to ask questions of 
the panel. So, pursuant to committee rules, I remind all 
Members that they have 10 business days in which to submit 
questions for the record. And we do know that there are 
additional questions that are going to be submitted to you all, 
as we did miss the hearing we had planned for the first 
quarter. And then we will ask for your responses within 10 days 
of receipt of those questions.
    So there being no further business, committee adjourned.
    [Whereupon, at 12:43 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                                 [all]



</pre></body></html>
